THE DRUG ENFORCEMENT ADMINISTRATION’S
        CONTROL OVER WEAPONS
         AND LAPTOP COMPUTERS
           FOLLOW-UP AUDIT


         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


            Audit Report 08-21
               March 2008
       THE DRUG ENFORCEMENT ADMINISTRATION’S
     CONTROL OVER WEAPONS AND LAPTOP COMPUTERS
                  FOLLOW-UP AUDIT

                            EXECUTIVE SUMMARY


      In 2001, at the request of the Attorney General, the Office of the
Inspector General (OIG) conducted audits of the controls over weapons and
laptop computers at the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons, and the
United States Marshals Service. These audits resulted from concerns about
the Department of Justice’s (DOJ) accountability for weapons and laptop
computers. The OIG issued separate reports concerning each component
and an overall report summarizing the results.

       In August 2002 we issued the report concerning the DEA’s control over
weapons and laptop computers. Our report identified weaknesses in the
DEA’s management of weapons and laptop computers, including purchases,
receipts and assignments, transfers, returns of property from employees
leaving the DEA, physical inventories, and property disposals.1 We made
22 recommendations in our 2002 report to help the DEA address these
deficiencies, such as reiterating policy regarding procedures and controls
over weapons and laptops, ensuring losses were reported as required, and
maintaining complete, accurate, and current inventory records.

Results in Brief

      The purpose of this follow-up audit was to determine whether the DEA
has made progress since our 2002 audit concerning its control over weapons
and laptops. To assess the DEA’s progress, we performed a comparative
analysis using the findings from our 2002 audit and this follow-up review.
We found that the DEA’s rate of loss for weapons more than doubled since
the 2002 audit, while the rate of loss for laptop computers declined by more
than 50 percent.

      Our 2002 audit found that DEA employees were not reporting lost or
stolen weapons to the DEA in a complete and timely manner. In addition,
the DEA had failed to ensure that all lost or stolen weapons were entered in

      1
         U.S. Department of Justice Office of the Inspector General. The Drug Enforcement
Administration’s Control over Weapons and Laptop Computers, Audit Report 02-28,
(August 2002).
the National Crime Information Center (NCIC) database. During our
follow-up audit, we found that these same weaknesses have persisted. The
DEA has not adequately and promptly reported incidents of lost or stolen
weapons and laptop computers to DEA headquarters and has not ensured
that lost or stolen property was entered in the NCIC database. The DEA’s
failure to report losses and enter relevant information in the NCIC database
also reduces the DEA’s chances of recovering this lost property.

       The DEA Board of Professional Conduct’s case files did not contain
information for 226 of the 231 lost or stolen laptop computers regarding
either the content or whether or not the laptop was encrypted. Therefore,
the DEA could not provide assurance that 226 of the laptops identified as
lost or stolen during our review period did not contain sensitive or personally
identifiable information (PII). In addition, since the DEA did not begin to
install encryption software on its laptops until November 2006, few of the
laptops lost or stolen during our review period were protected by encryption
software.

      In our 2002 audit we reported that the DEA had significant
weaknesses in its internal controls over weapons and laptops. This follow-up
audit found that while the DEA has improved its controls and procedural
compliance in its physical inventories, the DEA has failed to retain adequate
documentation necessary to support laptop acquisitions, disposals, and
losses. We also found that because the DEA failed to document laptop serial
and property numbers on the DEA Employee Clearance Record forms, the
DEA was not ensuring that assigned laptops were returned.

      In this follow-up report, we made seven recommendations designed to
reinforce the need for the DEA to improve its internal controls governing the
accountability of weapons and laptop computers. We again emphasized the
need to submit timely and accurate DEA Forms 29 and ensure all losses are
promptly entered into the NCIC database. In addition, DEA must submit
complete and accurate semiannual Department Theft and DOJ Computer
Emergency Response Team (DOJCERT) incident reports.

      Our report contains detailed information on the full results of our
review of the DEA’s control over weapons and laptop computers. The
remaining sections of this Executive Summary address our audit approach
and summarize our audit findings.




                                       ii
Audit Approach

     In this follow-up audit we conducted our fieldwork at DEA
headquarters, headquarters-level offices, and six field division offices. The
scope of this 2007 follow-up audit covered the 66-month period between
January 2002 and June 2007.

      Our work included determining the DEA’s practices and procedures for
responding to losses and assessing the DEA’s internal controls over its
weapons and laptops. We conducted physical inventories and tested the
accuracy and completeness of DEA records for weapons and laptops. We
tested DEA-owned and assigned weapons, as well as personally owned
weapons authorized for official purposes. We also queried the NCIC
database to determine if lost, stolen, or missing weapons and laptops were
entered into the database in a timely manner.

       Further, we assessed the DEA’s internal and external reporting
practices for lost or stolen weapons and laptops. Specifically, we evaluated
whether the DEA promptly and appropriately notified the DOJ of incidents of
loss. Our audit also examined the actions taken by the DEA in response to
lost or stolen weapons and laptops, including whether the DEA determined
what information was on the laptop and whether any discipline was imposed.
Additionally, we reviewed the DEA’s practices for ensuring that DEA-owned
weapons and laptops were returned to the agency by employees leaving the
DEA.

      Where appropriate, we also compared results from this follow-up
review of the DEA to results in our February 2007 follow-up audit of the
FBI’s controls over its weapons and laptop computers.2 Specifically, we
computed and compared the rates of losses for weapons and laptops per
1,000 agents per year for these two agencies, and we evaluated the
circumstances regarding reported losses.

     Appendix I contains more information on our audit objectives, scope,
and methodology.




      2
         U.S. Department of Justice Office of the Inspector General. The Federal Bureau of
Investigation’s Control over Weapons and Laptop Computers Follow-Up Audit, Audit
Report 07-18, (February 2007).
                                            iii
Property Management Regulations and Responsibility

      The Office of Management and Budget Circular A-123 and the DOJ’s
Justice Property Management Regulations require DOJ components to issue
detailed operating procedures for protecting federal property against fraud,
waste, and abuse. The DEA Property Management Handbook contains
guidelines for the general management of property, stating that weapons
and laptop computers must receive an asset number, be entered into one of
the DEA’s independently operated property subsystems, and be inventoried
annually.3

      The Firearms Training Unit is responsible for the overall management
of the DEA’s inventory of weapons and the DEA’s weapon property system –
the Weapons Database, which includes information such as the weapon
make, model, serial number, name of the responsible custodian, location,
acquisition date, and cost. Each of the DEA’s field divisions has a designated
Primary Firearms Instructor assigned to control the weapons inventory for
that division. For each headquarters unit, division office, district office,
resident office, and foreign country office, a Property Custodial Assistant is
designated for property management, including laptop computers.
Information on laptop computers is maintained in the DEA’s Fixed Asset
Subsystem, including the laptop asset number, serial number, manufacturer,
model number, acquisition date, cost, physical location, property condition,
and the name of the responsible Property Custodial Assistant.

DEA Lost or Stolen Weapons and Laptop Computers

      Our 2002 audit found that over a 26-month period the DEA had
16 weapons and 229 laptop computers lost or stolen. In this follow-up
audit, we determined that over a 66-month period 91 weapons and
231 laptop computers were lost or stolen. Comparing the results of these
two audits, we found that the DEA’s monthly rate of loss for laptop
computers decreased by more than 50 percent, while the rate of loss for
weapons more than doubled from 0.61 to 1.37 weapons a month as shown
in the following table.4

       3
           At the time of our audit, the DEA Property Management Handbook was being
revised.
       4
         Because the audit periods were different lengths, we analyzed the rate of loss on
an equivalent monthly basis. Our review period for the 2002 audit covered 26 months,
from October 1, 1999, to November 30, 2001. Our review period for the follow-up audit
covered 66 months, from January 1, 2002, to June 30, 2007.

                                             iv
                  DEA MISSING WEAPONS AND LAPTOP COMPUTERS
                   2002 AUDIT COMPARED TO FOLLOW-UP AUDIT

                                          Number of Lost or         Losses Reported
                                        Stolen Items Reported           Per Month
                                                     Follow-up                Follow-up
                 Category              2002 Audit      Audit     2002 Audit     Audit
      Lost Weapons                             4          22         0.15         0.33
      Stolen Weapons                         12           69         0.46         1.04
       Total Lost or Stolen Weapons          16            91        0.61         1.37

     Lost Laptop Computers              2295         206        8.81               3.12
     Stolen Laptop Computers              0           25           0.00            0.38
      Total Lost or Stolen Laptops      229          231        8.81               3.50
    Source: OIG analysis of DEA Board of Professional Conduct case files

Weapons Losses

       Our follow-up review examined the DEA Board of Professional Conduct
case files regarding lost or stolen weapons and laptops. We found many
instances when losses occurred despite reasonable precautions taken by DEA
employees.6 However, we also found instances when losses resulted from
employees failing to follow DEA policy. For instance, the DEA Agents
Manual, Section 6122.42 Firearms Security, Safety and Storage, specifically
states that DEA-issued and authorized personally owned pistols may not be
left unattended or temporarily stored in an official government or privately
owned vehicle. Our review found that 44 of the 69 stolen DEA weapons
were taken from vehicles. This was similar to our 2007 follow-up audit of
the FBI, which reported 58 weapons stolen from vehicles. We determined
that the DEA had 1.62 weapons stolen from vehicles per 1,000 agents per
year, while the FBI had a lower rate of 1.26 weapons stolen from vehicles
per 1,000 agents per year. However, in total the FBI had 3.49 lost or stolen
weapons per 1,000 agents per year, while the DEA had 3.36 weapons.




       5
        The DEA reported that 229 laptops were unaccounted for during the prior audit.
The DEA was unable to provide any details as to the number of lost versus stolen laptops.
       6
         Board case files contain copies of the DEA Form 29, a property/accident synopsis
form that briefly describes the incident, what was lost or stolen, the responsible individual,
the proposed disciplinary action, and the final disciplinary action taken. This file also
includes a copy of the letter of proposed disciplinary action, documents regarding the
proposed disciplinary action, and copies of any other investigation results.

                                               v
        WEAPONS STOLEN FROM VEHICLES AND TOTAL LOST OR STOLEN
                      PER 1,000 AGENTS PER YEAR


                 3.5
                                                     3.36     3.49
                  3
                 2.5
                  2
                 1.5
                           1.62
                  1               1.26
                 0.5
                  0
                       Stolen From Vehicles          Lost or Stolen

                                         DEA   FBI

              Source: OIG analysis of DEA and FBI follow-up audit data

Laptop Computer Losses

       Similar to the lost and stolen weapons, we found that many laptop
computer losses were avoidable if DEA employees had exercised appropriate
diligence and complied with DEA policy. For example, one laptop was left in
a taxi and another was stolen from checked luggage. However, we were
unable to analyze the circumstances behind the vast majority of laptop
losses because the DEA could not provide us with information for 206 of
231 missing laptop computers (89 percent). The DEA identified 149 of these
206 laptops as missing when conducting annual laptop inventories. The
remaining 25 laptop computers (11 percent) were reported as stolen from
vehicles and other locations such as hotels. Appendix IV includes more
detail on reported laptop losses.

      Comparing the DEA and FBI follow-up audit results for stolen laptop
computers, we found that the DEA and FBI both averaged nearly 1 laptop
computer stolen per 1,000 agents annually. In total, the DEA reported
8 laptops stolen from vehicles while the FBI reported 23 laptops.




                                          vi
           LAPTOP COMPUTERS STOLEN FROM VEHICLES AND TOTAL STOLEN
                         PER 1,000 AGENTS PER YEAR



              1.00
                                                                   0.96
                                                           0.92


              0.50
                                    0.50

                           0.30

              0.00
                        Stolen From Vehicles                  Stolen

                                               DEA   FBI

             Source: OIG analysis of DEA and FBI follow-up audit data

Reporting Lost or Stolen Weapons and Laptops

        DEA policy requires the responsible employee to file a police report in
the jurisdiction where the loss or theft of a weapon or laptop occurred. The
employee or their immediate supervisor also must ensure the weapon is
entered in the NCIC database by the local police agency responsible for the
jurisdiction in which the loss or theft was reported.7 Within 48 hours of the
event, the responsible employee also must submit Part 1 of the DEA Form
29, which is used to record pertinent information related to the loss.
(Appendix XI contains a copy of DEA Form 29.)

      In October 2002 the DEA Administrator issued a memorandum
requiring laptop losses to be reported to the DEA Board of Professional
Conduct and the DEA Office of Professional Responsibility within 48 hours of
an incident. In the past, lost or stolen weapons and laptops reported by the
DEA field offices were only referred by the Board of Professional Conduct to
the DEA Office of Professional Responsibility if documentation suggested any
form of misconduct related to the loss, theft, or destruction of a weapon or
laptop.



       7
          The NCIC is a database of criminal justice information, such as criminal record
history, fugitives, stolen property, and an index of individuals incarcerated in the federal
prison system. Criminal justice agencies enter records into NCIC, which are then accessible
to law enforcement agencies nationwide.

                                               vii
       On March 30, 2007, the DEA issued an additional policy clarifying
reporting responsibilities for lost or stolen weapons. This policy requires all
lost or stolen weapons to be referred to the DEA Office of Professional
Responsibility, which determines whether it will conduct an investigation or
assign the reporting office to perform the investigation.

      Data regarding lost or stolen weapons and laptops also must be
promptly entered into NCIC so that information is available to law
enforcement personnel. The DEA is a non-record entering agency for NCIC,
meaning that DEA employees do not enter data into the system, but rather
must rely on local law enforcement agencies to perform the task.

Weapon and Laptop Losses Not Reported in a Timely Manner

        Similar to our finding in the first DEA audit, we found during this
follow-up audit that the DEA failed to ensure that lost or stolen weapons
were reported in a complete and timely manner. While a DEA Form 29 was
completed for each of the 91 missing weapons, 37 of the 81 forms
(46 percent) were not completed within the 48-hour timeframe.8 We
determined that 2 weeks elapsed between the time of the incident and when
DEA personnel reported the loss in 19 of the 37 forms (51 percent)
submitted after the 48-hour deadline. This failure can hinder timely
investigations regarding each loss. In addition, 13 of the 81 forms (16
percent) did not contain critical information such as the correct serial
number or whether the weapon was entered into NCIC.

       We found similar issues with respect to missing or stolen laptops
during our follow-up audit. For example, of the 110 DEA Forms 29
examined for the 231 laptop computers reported missing, 9 forms were
submitted within the required timeframe and 31 forms were submitted late.9
Of those 31, 20 were filed anywhere from 15 days to 4.7 years late.
However, due to incomplete information, we were unable to determine if the
remaining 70 forms were submitted within the 48-hour timeframe.

Contents of Lost or Stolen Laptop Computers

     Since October 2002, the DEA has required a statement identifying
whether a lost or stolen laptop contained DEA sensitive or classified

      8
        We reviewed 81 DEA Forms 29 reporting the loss of 91 weapons. Multiple
weapons lost in a single incident are reported on a single DEA Form 29.
      9
          Several cases reported multiple laptops on one DEA Form 29.

                                           viii
information when reporting the incident. However, we found that DEA Board
of Professional Conduct files contained these statements for only 5 of the
231 laptop computers reported lost or stolen during this 66-month review
period. Of the five statements submitted, DEA records indicated that four
laptops did not contain sensitive or classified information while the fifth
contained sensitive case information.

       We asked DEA senior managers what the DEA did to determine the
contents of the remaining 226 lost or stolen laptop computers. The DEA was
unable to provide information regarding what was on the laptops. The DEA
told the OIG that “DEA is unable to provide, with certainty, assurance that
the content of many of these laptops is not sensitive information because it
does not remotely (in an automated manner) manage its laptops.” The
DEA’s Security Programs Information Security Section Chief stated that an
investigator generally attempts to determine what information may have
been lost or compromised. However, the Section Chief told us there is no
way to determine exactly what was on the laptop unless it is recovered.10
We believe the DEA’s inability to determine what was on the many stolen or
missing laptops was a significant failure.

Encryption of Laptop Computers

      According to a DEA policy implemented on July 30, 2007, all DEA
laptop computers used to process sensitive information must be encrypted.11
As shown in the following table, we determined that as of December 2007,
3,393 of the DEA’s 5,287 laptop computers had been encrypted. As of
December 2007, the DEA also reported that 155 additional laptops were in
the process of being encrypted, while the remaining 1,739 laptops were
exempt from the encryption requirement because they were not used to
process sensitive information. According to DEA policy implemented on
July 30, 2007, these laptops are used by Special Agents or Investigative
Technology Specialists exclusively to support electronic surveillance and
other digital monitoring functions.

       10
          In addition, as we explain in the next section, nearly all of the 231 laptop losses
reported during our 66-month review period occurred before DEA began encrypting laptops.
       11
          On March 28, 2007, the DEA submitted a memorandum to the DOJ Chief
Information Officer requesting a 60-day extension to May 31, 2007, for meeting the DOJ
requirement to ensure that all unclassified laptops had encryption to protect sensitive data.
This memorandum noted that the DEA began encrypting laptop computers in
mid-November 2006. The DOJ Chief Information Officer approved the DEA’s request.
According to DEA policy implemented on July 30, 2007, all laptop computers used to
process sensitive information must be encrypted.

                                              ix
                         DEA LAPTOP COMPUTERS ENCRYPTED
                          Laptops in Use as of December 2007

                            Category        Number        Percent
                       Encrypted             3,393           64%
                       Exempt                1,739           33%
                       In Progress12           155            3%
                              Total          5,287          100%
                      Source: OIG analysis of DEA Security Information Office data

      During our fieldwork in this follow-up audit, we attempted to assess
whether laptops reported lost or stolen were encrypted to protect the data
and, if not encrypted, what data was on the laptops. Our assessment of the
contents of laptops at the field sites we visited consisted of a visual
inspection of programs and recently modified files. Our review did not
examine the entire contents of the laptops.

       We found that 79 of 164 laptops we sampled were not encrypted. Of
the 79 laptops that were not encrypted, we identified at least 5 that
contained sensitive case-related information or PII. Our limited testing did
not find sensitive case information or PII on the remaining 71 laptops.

Entering Losses into NCIC

        During the initial audit in 2002, we determined that 6 of the 16 lost
or stolen weapons were not entered into the NCIC database. In this
follow-up audit we queried the NCIC database for the 91 lost or stolen
weapons and found that 11 were not entered into the database, while 7 of
the weapons were entered in the database with incorrect serial numbers.

        Regarding laptops, we found that only two DEA Forms 29 contained
sufficient documentation showing that the laptops were entered into NCIC.
We queried the NCIC database for the lost or stolen laptops and found that
229 of the 231 laptops reported lost or stolen did not have a record in the
NCIC database as required by DEA policy.

Internal Controls

      Internal controls for management of accountable property are
intended to provide reasonable assurance that resources are adequately

       12
           DEA officials informed us that these laptops were assigned to personnel in
temporary duty status, have compatibility issues with the encryption software, require
additional memory, or need batteries.

                                             x
safeguarded and that reliable data on this property is maintained and
properly reported. During this audit, we assessed the DEA’s internal control
structure and compliance with procedures for conducting inventories,
maintaining sufficient and accurate property records, reporting incidents of
loss to the DOJ, accounting for the disposal of property, and ensuring exiting
employees remit DEA-issued property.

        In our 2002 audit report we found that the DEA did not physically
inventory weapons on an annual basis and that the DEA’s separation of
duties over weapons inventorying at the Firearm Training Unit was
inadequate. We also found that although weapons were excessed to other
law enforcement agencies with proper documentation, the DEA failed to
ensure that the other agencies actually received the weapons. In addition,
although there was a category for weapons on the DEA Employee Clearance
Record, (DEA Form 171a, see Appendix XII), the form did not require details
of the weapons returned or provide details of the accountable property
retrieved from an employee leaving the DEA.13 We examined each of these
issues again in the current audit.

Physical Inventories

      DEA regulations require an annual inventory of all sensitive capitalized
assets and sensitive property items, which include weapons and laptop
computers. In our follow-up audit, we reviewed DEA-wide inventory reports
from 2002 through 2006 and determined that physical inventories of
weapons and laptops were conducted as required.

Reconciling Property Records to the Financial System

      In our 2002 audit report, we determined that the DEA’s financial
system was not integrated with its weapons inventory system – the
Weapons Database – to ensure inventory accuracy. In addition, the financial
system did not include an audit function that allowed edits made to the
Weapons Database to be tracked by an automated exception report. The
DEA’s financial system also had not been fully integrated with its Fixed Asset
Subsystem. As a result, the systems did not automatically verify that the
number of laptops actually purchased agreed with the number of items
placed into inventory. To improve the controls over its weapons and laptop
computer inventories, we recommended that the DEA develop internal

      13
          The DEA Employee Clearance Record is a form used by DEA to document that an
exiting employee has returned badges, credentials, weapons and other property and has
cleared various internal departments such as finance and procurement.

                                          xi
controls to ensure the reliability of inventories in the Weapons Database and
integrate its financial and property management systems so that inventory
would be routinely updated as laptops were purchased.

       In our follow-up review, we found that the DEA’s financial system still
is not integrated with its Weapons Database. However, we consider control
procedures, such as providing field components with inventories for
reconciliation purposes and verifying the accuracy of the Weapons Database
by Primary Firearm Instructors through a physical inventory implemented by
the DEA since our prior audit, to be sufficient for ensuring that information in
the Weapons Database is accurate and complete. In addition, all entries into
the Weapons Database were completed by the Firearms Training Unit at
Quantico, Virginia, which incorporated appropriate separation of duties.

       With respect to laptops, we found that the DEA’s financial system is
fully integrated with its Fixed Asset Subsystem, which accounts for laptops,
and the DEA had properly segregated the duties of staff taking physical
inventories, performing reconciliations, and modifying the property
management system.

Accuracy and Completeness of Inventory Records

      In our 2002 audit we tested the accuracy and completeness of the
Weapons Database and the Fixed Asset Subsystem. On a sample basis we
selected weapons from the Weapons Database and laptop computers from
the Fixed Asset Subsystem to physically verify their existence. The DEA
provided all weapons and laptop computers for our physical verification.

      During our follow-up audit we tested 4,331 DEA-owned and 763
personally owned weapons. We were able to verify 4,320 (99.7 percent) of
the sampled DEA-owned weapons and all 763 of the personally owned
weapons we sampled. The DEA was unable to account for 11 weapons in
our sample. The DEA believed seven of these weapons were destroyed but
had no supporting documentation concerning their destruction. For the
remaining four weapons, two were issued to Special Agents on assignment,
one weapon was an erroneous entry into the Weapons Database, and the
last weapon was a non-functional training weapon that could not be located.

      We conducted similar testing on a sample of DEA laptop computers.
Our sample comprised 3,007 of the DEA’s 7,381 total laptop computers. We
considered that the DEA accounted for the laptop if it was able to present
the laptop for our verification or provide documentation supporting that the
laptop existed. We also accepted documentation showing that the laptop
                                      xii
was lost, stolen, destroyed, or surplused after the date of our statistical
sample. The DEA was unable to account for 42 of the 3,007 sampled
laptops (1 percent). Additionally, we found 20 laptops assigned to DEA
headquarters components were not entered in the Fixed Asset Subsystem,
and the DEA took immediate corrective action by adding these laptops to the
inventory.

Reporting Losses to DOJ

      DOJ regulations require all components to submit to DOJ semiannual
reports on January 1 and July 1 summarizing the loss or theft of government
property that occurred within the preceding 6 months.14 In our 2002 audit,
we found that the DEA did not submit any semiannual Department Theft
Reports for 1999 and 2000, and the first semiannual report for 2001 was
submitted 36 days late. In addition, the semiannual reports submitted by
the DEA were inaccurate with respect to the number of weapon losses.

      For this follow-up audit we again tested the DEA’s submission of
semiannual Department Theft Reports. We also analyzed the DEA’s
compliance with DOJ regulations requiring all components to immediately
notify the Department of Justice Computer Emergency Response Team
(DOJCERT) of incidents involving the loss of laptops.

        DOJ Semiannual Reports – Our follow-up review found that the DEA
has not corrected its deficiency in reporting to the DOJ on the weapons and
laptop computers that were lost or stolen during semiannual reporting
periods. During the time period covered by our audit, 11 semiannual
Department Theft Reports were required to be submitted to the DOJ.
However, the DEA was only able to provide, and DOJ only had on file, 3 of
the 11 semiannual reports required during our testing period.

       We reviewed the three semiannual Department Theft Reports
submitted by the DEA during our audit period, and found that one report
was complete, but the other two reports contained errors and omissions.
While two of the three reports were submitted in a timely manner, we were
unable to determine if the third report was submitted when required. We
asked the DEA Deputy Assistant Administrator, Office of Administration,
about the remaining eight reports. She told us that the administrative clerk



      14
          DOJ Order 2630.2A, Protecting and Controlling Federally Controlled Property and
Loss/Theft Reporting Procedures.

                                           xiii
who prepared the semiannual theft reports typed over the prior report and
failed to retain a paper or electronic copy of the reports.

      In addition, we found that the DOJ Justice Management Division was
not aware of 67 weapons and 176 laptops that were lost or stolen during our
review period because the DEA did not submit the required semiannual
Department Theft Reports. Only 20 weapons and 24 laptops were reported
to the Justice Management Division as required by DOJ regulations.

      DOJCERT Notification - The DOJCERT assists in handling computer
security incidents throughout DOJ. DOJCERT officials told us that DOJCERT
was not required to track or report lost or stolen DEA laptops prior to May
2006. We identified 15 lost or stolen laptops from May 2006 through June
2007 that had been reported to the DEA’s Board of Professional Conduct.
However, DOJCERT only received reports from the DEA on three laptops
during this time period.

Disposal of Weapons and Laptop Computers

      In our 2002 audit report we found that DEA weapons excessed to
other law enforcement agencies were supported by proper documentation.
However, the DEA failed to follow up with these law enforcement agencies to
ensure that the shipped weapons were actually received. We recommended
the DEA ensure that the Firearms Training Unit document confirmations for
receipt of the weapons. In our previous audit, we did not note any problems
with the DEA’s procedures for the disposal of laptops.

      During our follow-up audit we selected a statistical sample of 295
weapons (43 destroyed and 252 surplused) from a universe of 7,300
excessed and destroyed weapons from January 2002 through February
2007. We found appropriate supporting documentation for all items tested,
including confirmations from local law enforcement agencies that received
the surplused weapons.

      Additionally, we selected a sample of 166 laptops from a universe of
3,214 excessed and destroyed DEA laptop computers. The DEA could not
provide sufficient supporting documentation for 15 of these 166 laptops
tested (9 percent). For 13 of these 15 instances, we found that DEA did not
retain any supporting documentation concerning the disposal. The DEA was
unable to provide sufficient documentation to support the disposal for the
other two instances.



                                    xiv
       We also found that the DEA’s laptop disposal process is decentralized
and that supporting documentation is maintained at each DEA location
worldwide. During our testing, the DEA was unable to provide the OIG with
requested disposal documentation in a reasonable amount of time. We
believe the DEA should retain copies of all disposal documentation at
centralized locations in each division office to manage the program more
effectively, enable quicker reconciliations, and provide adequate audit trails.
This added control would also elevate the DEA’s oversight over laptop
disposals and increase the overall accountability for excessing laptops.

Exit Procedures for Departing Employees

      In our 2002 audit report we found that although there was a category
for weapons on the DEA’s Employee Clearance Record, details of the weapon
were not included on the form, such as serial numbers or property
description. In addition, the form did not require information about what
type of accountable property was retrieved from an employee who left the
DEA.

       During our follow-up audit we reviewed Employee Clearance Records
at DEA field division offices for departing employees between January 1,
2005, and August 2, 2007. Our testing found that the DEA was
appropriately completing the weapons section on the Employee Clearance
Records, providing the DEA an important control over the weapons assigned
to departing employees. However, we found that the DEA was still not
documenting the Employee Clearance Records with specific details on laptop
computers, such as serial number, property numbers, and make and model,
returned by departing employees. Due to the lack of any specific details
identifying laptop computers, we were unable to determine from this form
whether DEA-issued laptop computers were returned by departing
employees.

Conclusions and Recommendations

      Our follow-up audit found that the DEA decreased its rate of loss for
laptop computers since our 2002 audit by more than 50 percent. In our
prior audit report, we reported that the DEA could not determine if any of
the lost, missing, or stolen DEA laptop computers resulted in a compromise
of investigative information. In this audit, we found that the DEA still could
not determine what was on its lost or stolen laptops. We found that for 226
of the 231 lost or stolen laptops reported in our follow-up audit review
period, the DEA is unable to provide any assurance that the lost or stolen
laptops did not contain sensitive information.
                                      xv
      In addition, we found in this audit that the number of losses and the
loss rate for weapons more than doubled from 0.61 to 1.37 per month since
our last review.

       The DEA has taken several steps since our 2002 audit to improve its
ability to account for lost or stolen weapons and laptops computers. For
instance, we found that the DEA performed annual physical inventories of
weapons and laptops and reconciled these inventories to its financial system
records.

       However, this follow-up audit found that the DEA still requires
significant improvements in its overall control over weapons and laptops.
The DEA must ensure that DEA policy and guidelines are consistently
enforced when an incident of loss or theft occurs. We found that the DEA
did not sufficiently and promptly report incidents of loss to DEA headquarters
or DOJCERT. Additionally, the DEA was not ensuring that lost or stolen
weapons and laptops were entered in the NCIC database as required by DEA
policy. These findings mirror weaknesses that we identified in our 2002
audit. Further, the DEA was unable to provide assurance that lost or stolen
laptops did not contain sensitive information, failed to effectively maintain
documentation for disposal of laptops, failed to submit required semiannual
reports of weapon and laptop losses to the DOJ, and failed to adequately
ensure that property was recovered from employees before separating from
employment with the DEA.

       This audit report contains seven recommendations related to ensuring
compliance with DEA policies and reporting requirements. Specifically, we
recommend that the DEA accurately and promptly report weapon and laptop
losses to its headquarters and the appropriate DOJ components, revise its
encryption policy to require that all laptops be encrypted, ensure that
firearms and laptop property losses are entered in the NCIC database and
verified by management for accuracy, and verify that property issued to
departing employees is adequately documented and retrieved upon
separation.




                                     xvi
                               TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

       Background................................................................................ 3
       Property Management Regulations ................................................ 4
       Property Management Responsibility.............................................. 4
       Loss or Theft of Weapons or Laptop Computers ............................... 5
       Automated Systems .................................................................... 6
       OIG Audit Approach .................................................................... 7

FINDINGS AND RECOMMENDATIONS.............................................. 11

       I.     DEA’s Response to Weapon and Laptop Losses .............. 11
              DEA Lost or Stolen Weapons and Laptop Computers .............. 11
              Reporting Weapons and Laptop Computer Losses .................. 13
              Referring and Investigating Losses ...................................... 20
              Disciplining Employees Responsible for Losses ...................... 22
              Conclusion ....................................................................... 27
              Recommendations ............................................................ 27

       II.    Internal Controls ........................................................... 29
              Physical Inventories .......................................................... 29
              Reconciling Property Records to the Financial System ............ 30
              Accuracy and Completeness of Property Records in the
               Weapons Database and Fixed Asset Subsystem .................. 32
              Reporting Losses to DOJ .................................................... 34
              Disposals......................................................................... 37
              Exit Procedures for Departing Employees ............................. 39
              Conclusion ....................................................................... 40
              Recommendations ............................................................ 41

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 42

APPENDICES................................................................................... 43

       Appendix I         -   Objectives, Scope, and Methodology ................... 43
       Appendix II        -   Abbreviations and Forms ................................... 47
       Appendix III       -   Circumstances and Actions Taken for Lost and
                               Stolen Weapons ............................................. 49
Appendix IV    -   Circumstances and Actions Taken for Lost and
                    Stolen Laptops ............................................... 55
Appendix V   -     Analysis of Lost and Stolen DEA Weapons ............ 71
Appendix VI -      Analysis of Lost and Stolen DEA Laptops.............. 75
Appendix VII -     Lost and Stolen DEA Weapons Not Found
                    in the NCIC Database...................................... 81
Appendix VIII -    DEA-Owned Weapons and Laptop Computers
                    Tested .......................................................... 83
Appendix IX    -   DEA Form 12, Receipt for Cash or Other Items ..... 85
Appendix X     -   DEA Form 17, Firearms Control Record................ 87
Appendix XI    -   DEA Form 29, Personal Property Negligence/
                    Liability Assessment ....................................... 89
Appendix XII -     DEA Form 171a, Employee Clearance Record ....... 91
Appendix XIII -    DEA Form 609, Request for Authorization to
                    Carry A Personally Owned Firearm .................... 93
Appendix XIV       Drug Enforcement Administration Response ......... 95
Appendix XV        Office of the Inspector General Analysis and
                    Actions Necessary to Close the Report............. 101
        DRUG ENFORCEMENT ADMINISTRATION’S
    CONTROL OVER WEAPONS AND LAPTOP COMPUTERS
                 FOLLOW-UP AUDIT

                               INTRODUCTION


       In 2001 the Attorney General requested that the Office of the
Inspector General (OIG) conduct audits of the controls over weapons and
laptop computers throughout the Department of Justice (DOJ) because of
concerns about the DOJ’s accountability for such property. In response to
this request, the OIG conducted separate audits of the controls over
weapons and laptop computers at the Federal Bureau of Investigation (FBI),
the Drug Enforcement Administration (DEA), the Federal Bureau of Prisons,
and the United States Marshals Service. The OIG issued separate reports on
each component and an overall report summarizing the results from each
audit.

       In August 2002 we issued our audit report on the DEA’s control over
weapons and laptop computers.15 That report covered the 2-year period
from October 1999 through November 2001. Our report disclosed losses of
weapons and laptop computers and weaknesses in the DEA’s management
of this property, including purchases, receipts and assignments, transfers,
returns of property from employees who leave the DEA, physical inventories,
and disposals. We reported that the DEA:

      •      identified 16 weapons as lost, missing, or stolen during the
             2-year period;

      •      identified that 229 laptop computers were unaccounted for;

      •      did not always report lost, missing, or stolen weapons to DEA
             management and DOJ officials in a complete and timely manner
             and did not ensure that all weapons reported as lost, missing, or




      15
         U.S. Department of Justice Office of the Inspector General. The Drug
Enforcement Administration’s Control over Weapons and Laptop Computers, Audit
Report 02-28, (August 2002).

                                          1
              stolen were entered in the National Crime Information
              Center (NCIC) database;16

       •      did not adequately segregate duties associated with maintaining
              its weapons inventory at its Firearms Training Unit in Quantico,
              Virginia;

       •      did not always conduct annual physical inventories of weapons
              or obtain written confirmation of receipt of weapons that were
              excessed to other law enforcement agencies; and

       •      did not maintain Employee Clearance Records with sufficient
              detail on remitted weapons and laptops for separated
              employees.

       We made 22 recommendations to help the DEA address these
deficiencies, including:

       •      reiterate to all DEA employees the guidelines for the security,
              safety, and storage of weapons and the requirements for
              reporting losses of DEA weapons as outlined in the DEA firearms
              policy;

       •      ensure the accurate and timely submittal of semiannual DOJ
              theft reports and the prompt entry of all lost, missing, or stolen
              weapons into the NCIC database;

       •      ensure that all purchases of laptops are entered into the Fixed
              Asset Subsystem inventory in a timely manner and that field
              division Property Custodial Assistants are advised in a timely
              manner by DEA headquarters of purchases and transfers of
              property items that pertain to their division; and

       •      ensure that details, such as property descriptions, DEA property
              numbers, and weapon serial numbers, are included on employee
              clearance records, and that confirmations from law enforcement
              entities affirming receipt of DEA excessed weapons are received
              and forwarded to the Firearms Training Unit.


       16
           NCIC is a computerized index of criminal justice information, including criminal
history information, fugitives, stolen property, and missing persons, that is available to
federal, state, and local law enforcement and other criminal justice agencies.
                                              2
     Overall, the DEA stated that it agreed with our recommendations and
would take corrective action to address the deficiencies. As of April 20,
2005, all 22 recommendations had been closed.

Background

       According to the DEA, its mission is to enforce the controlled substance
laws and regulations of the United States and bring to the criminal and civil
justice systems those organizations and principal members of organizations
involved in the growth, manufacture, or distribution of controlled substances
that are destined for illicit traffic in the United States. The DEA’s
Headquarters are in Arlington, Virginia. It has 227 domestic offices in
21 divisions throughout the United States and 86 foreign offices in
62 countries. As of June 23, 2007, the DEA had a total of 9,294 personnel
(4,929 law enforcement) assigned to these offices.

      In April 2007 the DEA had a total inventory of 14,449 weapons and
7,381 laptop computers. The inventory included semi-automatic handguns,
shotguns, rifles, and training weapons that do not use live ammunition.
Ninety-percent of DEA-owned weapons are issued to Special Agents, while
10-percent are unassigned and remain in the stock inventory at the Firearms
Training Unit and at field locations.

       Since 1973 DEA Special Agents also have been authorized to carry
personally owned weapons for official use. The standards for personally
owned weapons are the same as those for the DEA-owned weapons. DEA
Special Agents are prohibited from carrying any personally owned weapon
for official use other then those listed in the DEA Agent’s Manual. In
addition, DEA Special Agents must have an approved DEA Form 609
(Request for Authority to Carry a Personally Owned Firearm, see Appendix
XIII) in their Primary Firearms Instructor file. Personally owned weapons
were not included in our prior audit. In this follow-up audit, we included
personally owned weapons because we noted that a significant number of
Special Agents were authorized to carry personally owned weapons for
official duty purposes.

      Laptop computers are assigned to most Special Agents and other
employees of the DEA. In April 2007 the DEA had an inventory of
7,381 laptop computers. An October 18, 2002, memorandum from the DEA
Administrator stated that the storage of classified and other case sensitive
information on laptop computers is strictly prohibited unless authorized by
the DEA Office of Security Programs. Such an authorization must be laptop

                                      3
specific to ensure that the laptop is certified and accredited to process
sensitive or classified information.17

Property Management Regulations

       The Office of Management and Budget Circular A-123 requires
agencies to develop and maintain effective internal controls to ensure that
federal programs operate and federal resources are used efficiently and
effectively to achieve desired objectives with minimal potential for waste,
fraud, and mismanagement.18 It also requires agencies to establish a
management control system that ensures transactions are promptly
recorded, properly classified, and accounted for in order to prepare accounts
in a timely manner and reliable financial and other reports. The DOJ’s
Justice Property Management Regulations require DOJ components to issue
detailed operating procedures for protecting federal property against fraud,
waste, and abuse.

      The DEA’s Property Management Unit provides agency policy and
guidance for laptop computers for DEA headquarters, domestic offices, and
foreign offices. The DEA guidelines for the general management of property
are contained in its Property Management Handbook, which was being
revised and in draft status during our audit. The Accountable Personal
Property and Equipment section of this handbook stated that weapons and
laptop computers fall into the category of Accountable Personal Property and
must receive an asset number and be entered into one of the DEA’s
independently operated property subsystems. The handbook also stated
that both weapons and laptop computers must be inventoried annually.

Property Management Responsibility

       The draft version of the Property Management Handbook, which was
still being reviewed and had not yet been issued as of January 29, 2008,
defines property management as those functions of the government that
deal with the acquisition, inventory control, protection, and disposition of
government property. The Firearms Training Unit is responsible for the

       17
            As of July 2007, the DEA stated that it had only five laptop computers that were
specifically designated to process classified information. After 2007, sensitive data may be
processed on encrypted laptop computers. Prior to this, approval had to be granted to
process sensitive data on a DEA laptop. The DEA’s Security Programs Information Security
Section Chief told us that he was unaware of any approvals to process sensitive data.
       18
          Office of Management and Budget Circular A-123, Management’s Responsibility
for Internal Control.
                                             4
overall management of the DEA’s inventory of stock weapons and the DEA’s
weapon property system – the Weapons Database. Each of the DEA’s
21 field divisions has a designated Primary Firearms Instructor assigned to
control the weapons inventory for that division. For each headquarters unit,
division office, district office, resident office, and foreign country office, a
Property Custodial Assistant is designated for property management,
including laptop computers.

Loss or Theft of Weapons and Laptop Computers

      When a weapon is lost or stolen, the responsible employee must
immediately notify, through the chain of command, the employee’s office
head, who must ensure that the incident is immediately reported to the DEA
headquarters Command Center. The Command Center is staffed 24 hours a
day, 7 days a week and is responsible for immediately notifying the DEA’s
Board of Professional Conduct and Office of Professional Responsibility about
the missing weapon. Within 48 hours of a loss, the responsible office head
must notify the DEA’s Board of Professional Conduct and the Office of
Professional Responsibility and the discovering employee must provide
details of the incident by completing Part 1 of the DEA Form 29, which is the
DEA’s standardized document for reporting lost and stolen property (see
Appendix XI). In March 2007 the DEA issued interim policy designating the
DEA Office of Professional Responsibility to manage the DEA’s Lost or Stolen
Firearm Program. The Office of Professional Responsibility determines
whether it will conduct the investigation or require the responsible office to
conduct the investigation.

      Similar to a weapon loss, immediately upon discovery that a laptop
computer has been lost or stolen, the responsible employee must
immediately notify through the chain of command the office head, who must
ensure the incident is reported to the DEA Help Desk. The Help Desk is then
responsible for notifying the DEA Information Security Section. If the
incident is reported outside normal business hours, the Help Desk should
report the incident to the DEA Command Center instead of the Information
Security Section. If the laptop computer contains PII or sensitive
information, the Information Security Section or the DEA Command Center
is required to report the incident within 1 hour to the DOJ Computer




                                       5
Emergency Readiness Team (DOJCERT).19 If the laptop computer contains
classified information, the incident must also be reported to the Department
of Justice Security and Emergency Planning Staff (SEPS). Within 48 hours,
the responsible office head must notify the DEA’s Board of Professional
Conduct and the Office of Professional Responsibility, and the responsible
employee must provide details of the incident in completing Part 1 of the
DEA Form 29. The reporting office is responsible for conducting an
investigation of the incident.

       The DEA Board of Professional Conduct is responsible for reviewing the
circumstances of the loss of firearms and laptops and making
recommendations, such as assessing financial liability or recommending
disciplinary action, to the DEA Office of Deciding Officials. The deciding
officials are two senior DEA Special Agents who are responsible for assessing
the discipline or punishment to be imposed.

Automated Systems

      During our 2002 audit we noted that DEA utilized separate systems for
recording, tracking, and managing weapons and laptop computers. The DEA
Weapons Database includes information on each weapon, including the
make, model, serial number, name of the responsible custodian, location,
acquisition date, and cost. Information on laptop computers is maintained in
the DEA’s Fixed Asset Subsystem, which contains laptop computer
information such as asset number, serial number, manufacturer, model
number, acquisition cost and date, name of the responsible Property
Custodial Assistant, physical location, and condition.

Weapons

      In our 2002 audit report we reported that the DEA replaced its
automated property management system for weapons (M-204 system) with
a database system referred to by the DEA as the Weapons Database. As
noted in our prior report, this change was necessary because the previous
system contained unreliable information and had internal control weaknesses
that allowed system users to manipulate data so that items in inventory
could be transferred or deleted without approval. During the switchover to
the new system, the DEA completed an inventory and reconciliation of all
       19
           Personally Identifiable Information is any information about an individual,
including, (but not limited to), education, financial transactions, medical history, criminal or
employment history, or any information that can be used to distinguish or be traced to an
individual’s identity, such as name, social security number, date and place of birth, mother’s
maiden name, or biometric records.
                                               6
DEA-owned weapons. In addition, one of the controls in the new firearms
system is that only designated personnel in the Firearms Training Unit can
access the Weapons Database.

Laptop Computers

       In our 2002 audit report we noted that the DEA had two automated
systems comprising its official property management system for accounting
for laptop computers: the Fixed Asset Subsystem and the Technical
Equipment Inventory System. The Technical Equipment Inventory System
recorded laptops used for technical purposes, such as surveillance and
tracking. All other laptops were tracked in the Fixed Asset Subsystem.

       During this follow-up review we found that the DEA is still utilizing dual
systems to account for laptop computers. The Fixed Asset Subsystem allows
field locations to change the status of laptops assigned to it to be “disposed
of,” “excessed,” or “transferred,” but does not allow a field office to access
or change inventory data for other locations. The Technical Equipment
Inventory System allows technical group supervisors in the field to issue
laptops to users and update the status of laptop assignments. However,
they are unable to delete information from the system. Dedicated inventory
management specialists in the field are authorized to dispose of laptops with
prior approval from the Office of Investigative Technology.

OIG Audit Approach

       We conducted this follow-up audit to assess the DEA’s progress in
addressing the weaknesses we identified during our previous audit regarding
its control over weapons and laptop computers. Our review period for this
follow-up audit covered the 66 months between January 2002 and June
2007.

      We performed a complete inventory of all DEA weapons and laptop
computers at DEA headquarters in Arlington, Virginia; the DEA warehouse in
Alexandria, Virginia; the Special Operations Division and the Depot in
Chantilly, Virginia; the Organized Crime Drug Enforcement Task Force Fusion
Center in Merrifield, Virginia; and the DEA Training Academy in Quantico,
Virginia. We also tested a statistical sample of weapons and laptop
computers at the DEA field division offices in Chicago, Illinois; Denver,
Colorado; Houston, Texas; Los Angeles, California; Miami, Florida; and New
York, New York. Further, our audit included testing at these headquarters
and field locations of the DEA’s records and controls for its Special Agents
authorized to carry personally owned weapons.
                                       7
      Our audit also examined the actions, including disciplinary and
assessment of financial liability, taken in response to lost, stolen, and
missing weapons and laptop computers as reported by the DEA Board of
Professional Conduct. Additionally, we queried the NCIC to determine if lost,
stolen, or missing weapons were entered into the system in a timely
manner.

       We also reviewed the DEA’s internal controls over weapons and
laptops, which included examining the accuracy and completeness of DEA
records, evaluating the DEA’s compliance with DOJ reporting requirements
for lost or stolen items, and assessing the DEA’s accountable property exit
procedures for departing employees. We also tested a statistical sample of
records for weapons and laptop computers that were disposed of at DEA
headquarters and the Firearms Training Unit between January 1, 2002, and
June 30, 2007. Additionally, our assessment of controls over weapons
included physically verifying all weapons issued to Special Agents in the DEA
headquarters geographic area and all stock weapons maintained at the
Firearms Training Unit at Quantico, Virginia. We selected for testing
5,094 total weapons (4,331 DEA-owned and 763 personally owned) and
3,007 laptop computers.

                   ITEMS TESTED DURING OUR FOLLOW-UP AUDIT

                                       WEAPONS                       LAPTOPS
            Location         DEA Owned      Personally Owned       DEA Owned
     DEA headquarters              388                 189                2,189
     Firearms Training Unit      3,322                   0                  554
     Chicago                       101                  80                   30
     Denver                         41                  57                   19
     Houston                        78                  91                   56
     Los Angeles                   171                  91                   59
     Miami                         102                 131                   39
     New York                      128                 124                   61
             TOTAL               4,331                 763                3,007
    Source: OIG inventory of weapons and laptop computers at sites listed

      In addition, where appropriate we compared results from this
follow-up review of the DEA to results in our February 2007 follow-up audit
report of the FBI’s controls over weapons and laptop computers. 20 Our
follow-up review of the FBI covered a 44-month period from February 2002
through September 2005. For this review, we computed and compared
       20
          U.S. Department of Justice Office of the Inspector General. The Federal Bureau of
Investigation’s Control over Weapons and Laptop Computers Follow-Up Audit, Audit
Report 07-18, (February 2007).
                                            8
losses of weapons and laptops for these two agencies, and we comparatively
evaluated the circumstances regarding losses.




                                    9
This page intentionally left blank.




                10
                 FINDINGS AND RECOMMENDATIONS


I.     DEA’S RESPONSE TO WEAPON AND LAPTOP LOSSES

       Since our 2002 audit the rate of loss for DEA laptop computers
       has decreased, but the rate of loss for weapons doubled from
       0.61 to 1.37 weapons per month. Most important, the DEA was
       unable to provide assurance that the contents for 226 of 231 lost
       or stolen laptops did not contain sensitive information or
       personally identifiable information (PII). This is similar to the
       findings of our 2002 audit report. Additionally, while the DEA
       has improved some of its procedures relating to control and
       accountability for weapons and laptops since our previous audit,
       we found that the DEA did not correct several weaknesses
       identified in our 2002 audit. Specifically, the DEA did not timely
       and accurately report losses to appropriate DEA and Department
       officials and did not adequately ensure that lost property was
       entered in the NCIC database.

DEA Lost or Stolen Weapons and Laptop Computers

      As shown in the following table, our 2002 audit of the DEA found that
over a 26-month period 16 weapons and 229 laptop computers were lost or
stolen, compared to 91 weapons and 231 laptop computers over a 66-month
period in our follow-up audit. The DEA’s average monthly rate of loss for
weapons increased by 225 percent, while the rate of loss for laptop
computers decreased by more than 50 percent.21




       21
         Because the audit periods were different lengths, we analyzed the rate of loss on
a monthly basis.


                                            11
                  DEA MISSING WEAPONS AND LAPTOP COMPUTERS
                   2002 AUDIT COMPARED TO FOLLOW-UP AUDIT22

                                         Number of Lost or         Losses Reported
                Category               Stolen Items Reported          Per Month

                                        2002       Follow-up      2002       Follow-up
                                        Audit        Audit        Audit        Audit
     Lost Government Weapons                4           14         0.15          0.21
     Lost Personal Weapons23                0            6         0.00          0.09
     Lost Weapons, (unable to
     determine if government or             0            2          0.00        0.03
     personally owned)
     Stolen Government Weapons             12           43          0.46        0.65
     Stolen Personal Weapons                0           26          0.00        0.39
      Total Lost or Stolen Weapons         16           9124        0.61        1.37

     Lost Laptop Computers              22925        206        8.81            3.12
     Stolen Laptop Computers              0           25           0.00         0.38
      Total Lost or Stolen Laptops     229           231        8.81            3.50
    Source: OIG analysis of DEA Board of Professional Conduct case files

       This table shows that the DEA made significant improvement in its rate
of loss for laptop computers. Conversely, the DEA’s average monthly rate of
loss for weapons more than doubled from our previous audit.

       We recognize that some weapons and laptops will inevitably be stolen
or lost. However, it is important that the DEA take appropriate steps to
minimize loss. Moreover, when losses occur, the DEA must report the losses
promptly, both within the DEA and to DOJ. Further, the DEA must be able to
identify the contents of laptops, determine whether the laptops are
encrypted, and ensure weapons and laptops are entered into the NCIC
database in a timely manner.



       22
          Our review period for the 2002 audit covered 26 months, from October 1, 1999,
to November 30, 2001. Our review period for the follow-up audit covered 66 months, from
January 1, 2002, to June 30, 2007.
       23
         Personally owned weapons authorized for official use were not tested in the
2002 audit.
       24
          We were unable to determine whether these weapons were government owned or
personally owned because the serial numbers were not in the file.
       25
          The DEA reported that it could not account for 229 laptops during the prior audit.
No detail was given as to the number of lost versus stolen.


                                             12
     We also compared the DEA and FBI rates of loss per employee, and
found that the loss of weapons were similar. The FBI lost 3.49 weapons per
1,000 agents per year, while the DEA lost 3.36 weapons. For laptop
computers, the FBI lost 3.49 per 1,000 agents per year compared to the
DEA’s rate of 8.52 laptops.

            DEA AND FBI MISSING WEAPONS AND LAPTOP COMPUTERS
                      FOLLOW-UP AUDITS COMPARISON

                                          Weapons                      Laptops
                                               Weapons                        Laptop
                                                Lost or                     Computers
                                      Total   Stolen Per    Total Laptop Lost or Stolen
                         Number     Weapons      1,000       Computers       Per 1,000
               Special     of        Lost or    Agents        Lost or         Agents
  Component    Agents    Months      Stolen    Per Year        Stolen        Per Year
  DEA           4,929       66         91        3.36            231           8.52
  FBI          12,515       44        160        3.49            160           3.49
 Source: OIG analysis of DEA and FBI follow-up audit data

Reporting Weapons and Laptop Computer Losses

        The DEA’s Agent Manual requires the responsible employee to file a
police report in the jurisdiction where the loss or theft of a weapon or laptop
occurred. Additionally, the responsible employee or their immediate
supervisor must ensure the weapon is entered in the NCIC database by the
local police agency responsible for the jurisdiction in which the loss or theft
was reported. Within 48 hours of the event, the responsible employee also
must complete Part 1 of the DEA Form 29.

        In October 2002 the DEA Administrator issued a memorandum
requiring that all losses of laptop computers be reported within 48 hours of
the incident to the DEA Board of Professional Conduct and the DEA Office of
Professional Responsibility. The notification must include a full description of
the laptop computer and circumstances surrounding the loss or theft. In
addition, the notification must include a statement identifying whether the
laptop contained any DEA sensitive or classified information.

      The DEA Form 29 – Personal Property Negligence/Liability Assessment
(see Appendix XI) is used to report within the DEA the loss or theft of a
weapon or laptop. The form is required to be completed and signed by the
employee and the employee’s supervisor. The form is used to record
pertinent information related to the loss, including information about the
employee; the type of property; whether the property was DEA-owned,
rented, or borrowed; whether the incident was reported to the police;
                                            13
whether information on the property was entered into NCIC; and what
happened to the property, such as was it lost, stolen, or damaged.
Additionally, the form has an area to describe the item and an area for the
employee to provide a statement regarding the events being reported.
However, the form does not have a section for identifying the contents of
the data stored on the laptop and whether the data included sensitive or PII.
The form is also used to document the reporting office’s results of the initial
investigation of the incident and is then forwarded to the DEA Board of
Professional Conduct.

       The NCIC is a database of criminal justice information, including
information on criminal record histories, fugitives, stolen property, and
individuals incarcerated in the federal prison system. Criminal justice
agencies throughout the United States enter records into NCIC, which are
then accessible to law enforcement agencies nationwide. DEA policy
requires that data regarding lost or stolen weapons and laptops be promptly
entered into NCIC so that the information is available to law enforcement
personnel while conducting enforcement functions. The DEA is a non-record
entering agency for the NCIC, meaning DEA employees do not enter data
into the system. Rather, the DEA relies on local law enforcement agencies
to perform this task. However, failure to enter missing weapon and laptop
data into the NCIC could result in reducing the chances of recovering the
item or identifying the weapon if it is used in the commission of a crime.

        Our 2002 audit found that DEA employees did not always report lost
or stolen weapons and laptops to the DEA in a complete and timely manner
and did not ensure that all lost or stolen weapons and laptops were entered
into the NCIC database. As a result, we recommended that the DEA ensure
all missing weapons and laptops were promptly entered into the NCIC
database and reiterate to all employees the policy for reporting losses of
DEA property as outlined in the DEA Agents Manual, Section 6122.13, Loss,
Theft, or Destruction of a Firearm. In response to our 2002 audit
recommendations, the DEA distributed DEA-wide teletypes on July 25 and
August 22, 2002, reminding Special Agents of the requirements of the
Agents Manual.

Reporting Weapon Losses

      During our follow-up audit, we reviewed the reporting actions taken by
the DEA in response to lost or stolen weapons and laptop computers by
examining DEA Forms 29 that were included as part of the DEA Board of
Professional Conduct case files. The DEA was able to provide DEA Forms 29

                                      14
for all 91 of the lost or stolen weapons. We also examined whether the
losses were reported within 48 hours, entered into NCIC, and recovered.

      The DEA prepared 81 DEA Forms 29 reporting the 91 missing weapons
(7 forms included multiple weapons). We found that 37 (46 percent) of the
forms were not completed within the required 48-hour timeframe. In
19 instances DEA personnel took over 2 weeks to report the loss, hindering
a timely investigation regarding the circumstances of the loss. (Details on
the number of days until losses were reported are contained in Appendix V.)
In addition, 13 (16 percent) of the forms did not contain critical information,
such as the correct serial number or whether the weapon was entered into
NCIC. The failure of DEA to ensure that lost or stolen weapons were
internally reported in a timely manner in accordance with DEA policy is a
finding that we previously identified in our 2002 audit.

      TIMELINESS OF REPORTING LOST OR STOLEN WEAPON AND LAPTOPS
                        DEA FORMS 29 SUBMITTED



                70
                                                                         70
                60

                50

                40        44
                30                            37
                                29                 31
                20

                10
                                                                  0
                 0
                     Reported Within    Not Reported Within Unable to Determine
                         48 Hours            48 Hours

                                         Weapons    Laptops

                Source: OIG analysis of DEA Board of Professional Conduct case files

Reporting Laptop Computer Losses

      We also examined 110 DEA Forms 29 for the 231 laptop computers
reported missing.26 For 70 of the 110 DEA Forms 29 (64 percent) we could

      26
           Several cases reported multiple laptops on one DEA Form 29.


                                            15
not determine if the forms were submitted within 48 hours as required by
DEA policy because DEA personnel did not include submittal dates on the
forms. We determined that 31 of the DEA Forms 29 (28 percent) were
submitted late. Of these 31 forms, 20 were filed from 15 to over 1,700 days
late, hindering timely investigation of the loss. We were able to determine
that only 9 of the 110 DEA Forms 29 tested (8 percent) were submitted
within the required timeframe. Appendix VI provides details on the number
of days that laptops were reported late.

      As mentioned previously, the DEA issued two teletypes in 2002
reminding Special Agents of policy regarding reporting losses of property.
However, our audit results indicate that the DEA did not ensure that its staff
was filing reports for lost or stolen property within the required 48 hours.
DEA management needs to ensure that its staff prepares complete and
accurate loss reports and submits those reports to the appropriate offices in
a timely manner.

Contents of Lost or Stolen Laptop Computers

      Our review of the DEA Board of Professional Conduct case files found
that only 5 of the 231 lost or stolen laptop computers contained information
regarding the sensitivity of the contents of the missing laptops.

      For the other 226 laptops reported lost or stolen during our review
period, we asked the DEA Board of Professional Conduct Chairman, Office of
Professional Responsibility Deputy Chief Inspector, and Office of Security
Programs Information Security Section Chief what the DEA did to determine
the contents of the other lost or stolen laptop computers. In response, the
DEA provided the following statement:

      DEA is unable to provide, with certainty, assurance that the
      content of many of these laptops is not sensitive information
      because it does not remotely (in an automated manner) manage
      its laptops. The majority of DEA’s laptop computers are used as
      standalone computing devices. DEA’s policy prior to 2007
      (Asa Hutchinson’s October 2002 Memo) did not allow sensitive
      data or classified information to be processed on standalone
      laptops. During the time prior to the PII mandate in July 2006,
      DEA asked only for affirmation from users that no sensitive or
      classified data was on the missing devices. After 2007, sensitive
      data was authorized to be processed on laptops that have full
      hard-disk encryption.


                                      16
      In addition to this statement, the DEA Security Programs Information
Security Section Chief told us that DEA investigators attempt to determine
what information may have been lost or compromised, but said there is no
way to determine the contents of the missing laptop unless it is recovered.
However, we found no evidence that this was done for the most of the
laptops.

      We asked the DEA to provide the results of any investigations it
conducted to determine the contents of the 231 lost or stolen laptop
computers. In response, the Office of Security Programs Information
Security Section Chief was only able to provide results regarding three lost
or stolen laptop computer cases. He stated that in one case the laptop
contained sensitive information but was fully encrypted. In another case,
the laptop was not encrypted, but did not contain Personally Identifiable
Information. In the third case, the missing laptop did not contain sensitive
information but did contain contract information.27 Because the DEA could
not provide serial numbers for these three laptops, we could not determine
whether they were part of the 231 lost or stolen laptops identified during our
follow-up audit or whether these were additional losses.

       In addition, since October 2002 the DEA has required that reports of
lost or stolen laptops must include a statement identifying whether the
laptop contained any DEA sensitive or classified information. We did not find
any of these required statements in the DEA Board of Conduct case files for
226 laptops identified as lost or stolen. As a result, the DEA could not
provide assurance that the laptops did not contain sensitive or PII
information.

      The DEA was able to confirm the contents for five of the lost or stolen
laptops. Of the five, one was determined by the DEA to contain sensitive
case information while the remaining four did not.

       In our opinion, the DEA failed to adequately determine the contents of
the lost and stolen laptops. We believe the DEA must implement policies to
ensure that it identifies the contents of any lost or stolen laptops and
whether these laptops contained sensitive, classified, or personally
identifiable information.


      27
           DOJCERT assists in handling computer security incidents throughout DOJ. DOJ
regulations require all components to submit immediate reports summarizing incidents
involving the loss of both classified and unclassified systems to DOJCERT. DOJCERT
maintains a database of reported incidents. The DEA’s lack of reporting to DOJCERT is
discussed in Finding II.
                                           17
Encryption of Laptop Computers

      DEA reported that as of December 2007, 155 of the DEA’s
3,548 laptops that required encryption were not yet encrypted. Of the DEA’s
5,287 laptops, 1,739 were not authorized to contain sensitive information
and according to DEA policy do not require encryption. In our judgment,
due to the sensitivity of the data that DEA generally processes, we believe
the DEA should revise its policy to ensure that all laptop computers are
encrypted to minimize the risk of loss of sensitive DEA data.

      As shown in the following table, 64 percent of DEA’s laptop computers
had been encrypted as of December 2007.28 Of the 36 percent of laptops
that were not encrypted, the DEA reported that 3 percent were in the
process of being encrypted and the remaining 33 percent were exempt for
encryption because they were not used to process sensitive information.
According to a DEA policy, effective July 30, 2007, 1,739 laptops
(33 percent) are used by Special Agents or Investigative Technology
Specialist to support electronic surveillance, computer forensics, polygraph
examinations and other digital monitoring functions.

                         DEA LAPTOP COMPUTERS ENCRYPTED
                          Laptops in Use as of December 2007

                            Category        Number        Percent
                       Encrypted             3,393           64%
                       Exempt                1,739           33%
                       In Progress29           155            3%
                              Total          5,287          100%
                      Source: OIG analysis of DEA Security Information Office data

      During our fieldwork, we attempted to determine whether DEA laptops
in the field offices we visited were encrypted and what data was contained
on the laptops. As shown in the following table, we found that 79 of

       28
          On March 28, 2007, the DEA submitted a memorandum to the DOJ Chief
Information Officer requesting a 60-day extension, to May 31, 2007, for meeting the DOJ
requirement to ensure that all unclassified laptops had encryption to protect sensitive data.
This memorandum noted that the DEA began encrypting laptop computers in
mid-November 2006. The DOJ Chief Information Officer approved the DEA’s request.
According to DEA policy implemented on July 30, 2007, all laptop computers used to
process sensitive information must be encrypted.
       29
           DEA officials informed us that these laptops were assigned to personnel in
temporary duty status, have compatibility issues with the encryption software, require
additional memory, or need batteries.


                                             18
164 laptops we examined were not encrypted. Of the 79 unencrypted
laptops, we identified at least 5 that contained sensitive or personally
identifiable information. In addition, the password and user ID for one of
the encrypted laptops was attached to the laptop.30

                              NUMBER OF LAPTOPS TESTED

                                                                     Not
                 Field Office    Reviewed Encrypted               Encrypted
                 Chicago               23             13               10
                 Denver                18             11                7
                 Houston               33             13               20
                 Los Angeles           47              5               42
                 Miami                 17             17                0
                 New York              26             26                0
                      Total           164             85               79
                Source: OIG analyses of laptops tested

Entering Losses into NCIC

      DEA policy specifies that all lost or stolen personal property, including
laptops, is required to be entered into NCIC. During our 2002 audit we
found that the DEA did not ensure that all lost or stolen weapons were
entered into the NCIC database. Specifically, we determined that 6 of the
16 lost or stolen weapons (38 percent) were not entered into the NCIC
database. In this follow-up audit, we reviewed DEA loss documentation and
queried the NCIC database for the 91 lost or stolen weapons. We found that
11 weapons were not entered in the NCIC database, and 7 weapons were
entered with incorrect serial numbers. Serial numbers uniquely identify a
weapon, and incorrect serial numbers will likely prevent an NCIC user from
matching a weapon to one cataloged inaccurately in the NCIC database. We
determined that 17 of the 73 weapons correctly entered in the NCIC
database were recovered. Appendix VII provides details on the weapons
that were not found in the NCIC database.

      We determined that only two DEA Forms 29 contained enough
information to show that the laptop was entered into the NCIC. There was
not enough information on the DEA Forms 29 to confirm whether 229 of the
231 lost or stolen laptop computers were entered into NCIC. We queried the


       30
          Our review of the contents of laptops at the field sites visited consisted of a visual
inspection of the programs and recently modified files contained on the laptops. Our review
did not examine the entire contents of the laptops.


                                              19
NCIC database for the lost or stolen laptops and found that 229 laptops did
not have a record in the NCIC database.

       Promptly and accurately entering information on lost and stolen
weapons and laptops can assist in recovering the missing property.
However, the DEA Agents Manual does not include policy pertaining to
internal reporting procedures for lost or stolen laptops, including entering
relevant information in the NCIC database. We believe the DEA should
include procedures for reporting lost or stolen laptop computers in the
manual. Further, DEA management should be required to ensure that all
lost or stolen weapons and laptops have been accurately entered in the NCIC
database.

       Overall, we believe that the DEA still needs significant improvement in
its internal reporting of lost and stolen weapons and laptop computers and in
entering laptop losses into the NCIC database. Comparing our results of the
DEA from this audit with those of our FBI follow-up audit, we found that the
DEA and FBI were similarly poor in internally reporting weapons and laptop
losses and in entering laptop losses in the NCIC database. The following
table provides details of our comparison.

                             COMPARISON OF DEA AND FBI REPORTING
                            OF LOST OR STOLEN WEAPONS AND LAPTOPS

                                  DEA                                         FBI
                             Unable to           Percent                Unable to           Percent
                YES   NO     Determine   Total     Yes      Yes   NO    Determine   Total     Yes
 Weapon
 Loss
                 31   37          13        81        38%    52   54         51      157      33%
 Reported
 Timely
 Weapons
 Entered into    73   18           0        91        80%   137   23          0      160      86%
 NCIC
 Laptop
 Loss
                  9   31          70      110         8%     16   38        106      160      10%
 Reported
 Timely
 Laptops
 Entered into     2   216         13      231         1%     24   136         0      160      15%
 NCIC
Source: OIG FBI Follow-up audit and OIG analysis of the DEA Board of Professional
        Conduct files

Referring and Investigating Losses

      Our 2002 audit found that DEA lost or stolen weapons were reported
and investigations were initiated on all 16 instances of loss. However, our

                                                 20
previous audit also found that the DEA could not account for 229 laptops in
an agency-wide reconciliation of its property inventory. In our previous
audit we were also unable to test whether the DEA’s policies and procedures
concerning lost or stolen laptop computers were adequate because DEA was
unable to provide reliable data. Therefore, we could not determine how
many lost or stolen laptop computers were reported and referred to the DEA
Office of Professional Responsibility for investigation.

       The DEA issued interim policy on March 30, 2007, designating the
DEA Office of Professional Responsibility as the unit with the overall
management of the DEA Lost or Stolen Firearm Program. The policy
authorizes the Office of Professional Responsibility to determine whether it
will investigate the case or refer it to the reporting office for investigation. If
the case is referred to the reporting office, the office head must assign the
matter for investigation to a Special Agent or Diversion Investigator who is a
grade equal to or higher than the grade of the responsible employee and
who is not directly associated with the responsible employee. The
investigation should verify the facts and circumstances surrounding the loss,
theft, or destruction as reported by the responsible employee. The
investigation also should acquire facts necessary to determine whether the
property was being used in an official capacity and whether personal
negligence contributed to the loss or theft. According to DEA policy, a
completed Report of Investigation must be submitted to the DEA Board of
Professional Conduct within 30 days of the loss, theft, or destruction

       As previously noted, in October 2002 the DEA Administrator issued a
memorandum requiring laptop computer losses to be reported to the DEA
Board of Professional Conduct and the DEA Office of Professional
Responsibility within 48 hours of the incident. However, the DEA Board of
Professional Conduct Chairman told us during our current audit that not all
lost or stolen weapon and laptop cases have been referred for investigation
to the DEA Office of Professional Responsibility. Weapons and laptops that
were reported by the DEA field offices as lost or stolen were only referred by
the Board of Professional Conduct to the Office of Professional Responsibility
if documentation presented in the report indicated some form of misconduct
was involved in the loss, theft, or destruction of the weapon or laptop.

      The following table summarizes the total number of lost or stolen
weapons and laptop computers that were referred to the Office of
Professional Responsibility for investigation.




                                        21
                          REFERRALS AND INVESTIGATIONS OF
                             WEAPON AND LAPTOP LOSSES
                         January 1, 2002, through June 30, 2007

                                                                        Unable to
                                                                        Determine
                                                                         Whether
                                    Referred to                        Referred to       Total
                                  the DEA Office    Not Referred to      the DEA       Number of
                                        of          the DEA Office       Office of      Lost or
                                   Professional     of Professional    Professional     Stolen
           Category               Responsibility    Responsibility    Responsibility     Items
 Lost Weapons                              14                 8                 0           22
 Stolen Weapons                            40                10               19            69
 Total Lost or Stolen Weapons              54                18               19            91

 Lost Laptop Computers                 1              0              205                 206
 Stolen Laptop Computers               1               0              24                  25
 Total Lost or Stolen Laptops31        2              0              229                 231
Source: OIG analysis of DEA Board of Professional Conduct Case Files

Disciplining Employees Responsible for Losses

       In the case of a lost or stolen weapon or laptop, the DEA Office of
Professional Responsibility determines whether it will investigate the case or
refer it to the reporting office for investigation. As stated previously, the
Office of Deciding Officials assesses disciplinary action as deemed
appropriate.

Weapon Loss

       Our follow-up review of the DEA Board of Professional Conduct case
files found instances when losses occurred despite reasonable precautions
taken by DEA employees. However, we also found instances of lost or stolen
weapons resulting from employees’ carelessness or failure to follow DEA
policy. For instance, the DEA Agents Manual, Section 6122.42 Firearms
Security, Safety and Storage, specifically states that DEA issued and
authorized personally owned weapons may not be left unattended or
temporarily stored in an official government or privately owned vehicle. As
shown in the following table, we found that 44 of the 69 stolen weapons
(64 percent) were stolen from official government or privately owned
vehicles. The weapons stolen included pistols, rifles, shotguns, and a
submachine gun. Pistols accounted for 39 of the 44 weapons stolen from


      31
           A total of 231 laptops were lost or stolen for 110 cases filed.


                                               22
vehicles (89 percent). Further details of these losses are provided in
Appendix III.

                  WEAPONS REPORTED LOST AND STOLEN BY TYPE
                    JANUARY 1, 2002, THROUGH JUNE 30, 2007

                                                           Submachine     Total
                               Pistol   Shotgun    Rifle      Gun        Weapons
       Lost:
        Inventory                 4        0         0            0            4
        Miscellaneous32          15        2         0            1           18
              Subtotal           19        2         0            1           22
       Stolen:
        From Official
                                 31        2         2            1           36
        Government Vehicle
        From Privately Owned
                                  8        0         0            0            8
        Vehicle
        From Residence           13        0         0            0           13
        Other33                  11        1         0            0           12
              Subtotal           63        3         2            1           69
                Total            82        5         2            2           91
      Source: OIG analysis of the DEA Board of Professional Conduct case files

      Comparing the DEA follow-up audit results of lost and stolen weapons
with the follow-up audit results of the FBI, we found that the DEA and FBI
both experienced weapons being stolen from government owned and
privately owned vehicles in relatively similar rates. DEA had 44 weapons
stolen from vehicles while the FBI had 58 weapons stolen from vehicles. We
found that the DEA and FBI had 1.62 and 1.26 weapons stolen from vehicles
per 1,000 agents per year, respectively.

      We reviewed the DEA Board of Professional Conduct files to determine
the actions taken for the 91 weapons that were lost or stolen. Although
91 weapons were reported as lost or stolen, multiple weapons were included




      32
        These weapons were lost under a variety of circumstances. For example, one
weapon was left on top of a Special Agent’s car and presumably lost as he drove off. One
weapon was destroyed in a bombing and another was destroyed in a fire.
      33
          These weapons were stolen under a variety of circumstances. For example, one
weapon was stolen from a boat loading dock where it was left unattended. Another was
placed in a briefcase and left behind in a restaurant.


                                           23
in 7 cases; therefore, 81 actions were taken on these losses. The DEA‘s
reviews resulted in the following 81 actions:

     •    26 instances resulted in no disciplinary action;

     •    46 instances resulted in suspensions of the responsible
          employees, ranging from 1 to 7 days;

     •    1 instance resulted in suspension of the responsible employee for
          30 days;

     •    5 instances resulted in the employees receiving a Letter of
          Caution; and

     •    3 instances resulted in the employees receiving a Letter of
          Reprimand.

       We found that all 91 weapon losses were investigated by DEA Special
Agents where the loss or theft occurred and referred to the Board of
Professional Conduct as required by DEA policy. We also found that the
disciplinary actions taken by the DEA appeared to be consistently imposed.

Laptop Computer Loss

       Similar to the reports of lost and stolen weapons, many laptop
computer losses could have been avoided if employees were more careful
and complied with DEA policies. For example, one laptop was left in a taxi
and another was stolen from checked luggage. As shown in the following
table, the DEA could not provide the circumstances of the losses for 206 of
231 missing laptop computers (89 percent). These laptops were discovered
missing during routine inventories and other unexplained circumstances.
After our initial testing, the DEA was able to locate or find supporting
documentation that accounted for 8 of the 206 missing laptops. The DEA
identified 149 of these 206 laptops as missing (72 percent) when conducting
annual laptop inventories. In addition, 4 laptops were lost after being left
unattended and 26 laptops were believed to have been disposed of or
transferred, but no supporting documentation was available to substantiate
this claim. The DEA was unable to determine the circumstances of the loss
for an additional 27 laptops. The remaining 25 laptop computers
(11 percent) were reported as stolen from vehicles and other locations.
Appendix IV includes more detail on reported laptop losses.



                                     24
                  LAPTOP COMPUTERS REPORTED LOST AND STOLEN
                      January 1, 2002, through June 30, 2007


                                                          Total
                         Lost:
                          Inventory                         149
                          Left Unattended                     4
                          No Documentation                   26
                          Unknown                            27
                                 Subtotal                   206

                         Stolen:
                          From Official Vehicle               8
                          From Residence                      1
                          Other 34                           16
                                 Subtotal                    25

                                    Total                  231
                        Source:   OIG analysis of DEA Board of
                                  Professional Conduct case files

       As shown in the following table, the DEA and FBI follow-up audit
 results for stolen laptop computers, we found that the DEA and FBI both
 averaged nearly 1 stolen laptop computer per 1,000 agents per year. We
 also noted that the DEA had 8 laptops stolen from official vehicles while the
 FBI had 23 laptops stolen in such a manner. The DEA averaged 0.30 laptops
 stolen from vehicles per 1,000 agents per year, compared to the FBI’s rate
 of 0.50 laptops.

                         FOLLOW-UP AUDIT COMPARISON OF
                    DEA AND FBI LAPTOP COMPUTERS STOLEN AND
                     LAPTOP COMPUTERS STOLEN FROM VEHICLES

                                                Laptops          Total          Laptop
                                               Stolen Per       Laptop     Computers Stolen
                         Number      Total        1,000      Computers     From Vehicles Per
              Special      of      Laptops       Agents      Stolen From     1,000 Agents
 Component    Agents     Months     Stolen      Per Year       Vehicles        Per Year
 DEA            4,929      66           25         0.92               8              0.30
 FBI           12,515      44           44         0.96             23               0.50
Source: OIG analysis of DEA and FBI follow-up audit data




        34
           These laptop computers were stolen under a variety of circumstances. For
 example, several laptops were reported stolen from hotels and temporary quarters.
 Another laptop was reported stolen from checked luggage.


                                             25
      We reviewed the DEA Board of Professional Conduct files to determine
the actions taken for the 231 laptop computers that were lost or stolen. In
several instances, multiple laptops were reported on a single DEA Form 29.
We found that the 206 lost laptop computers resulted in 85 Board of
Conduct cases. The DEA’s reviews of laptop losses resulted in the following
85 actions.35

     •        Seventy-three instances involved no disciplinary action.

     •        Two instances resulted in the responsible employees receiving a
              Letter of Reprimand.

     •        Ten instances resulted in the responsible employees receiving a
              Letter of Caution.

     We also determined that each of the 25 stolen laptops was a separate
Board of Conduct case and that the following actions were taken:

     •        Eleven instances involved no disciplinary action.

     •        Eight instances resulted in the responsible employee receiving a
              Letter of Reprimand.

     •        Four instances resulted in the responsible employee receiving a
              Letter of Caution.

     •        Two instances resulted in the responsible employee receiving
              suspensions, one for 2 days the other for 3 days.

      We found that all 231 laptop losses were referred to the Board of
Professional Conduct as required by DEA policy, and that that disciplinary
actions taken by the DEA appeared to be administered consistently. For
226 laptops, we found that the DEA was unable to determine if the laptops
contained sensitive case information or PII. However, for five laptops the
DEA was able to determine the laptops’ contents and one of the five
contained sensitive case information.




     35
          Several DEA Forms 29 reported multiple lost or stolen laptops on a single form.


                                            26
Conclusion

      Our follow-up audit found that the DEA decreased its rate of loss for
laptop computers since our 2002 audit by more than 50 percent. In our
2002 audit report, we reported that the DEA could not determine if any of
the lost, missing, or stolen DEA laptop computers resulted in a compromise
of investigative information. In this audit we found that the DEA still could
not determine what was on its lost or stolen laptops. We found that for
226 of the 231 lost or stolen laptops reported in our follow-up audit review
period the DEA is unable to provide any assurance that the lost or stolen
laptops did not contain sensitive information. In addition, we found that the
DEA did not install encryption software on all of its laptop computers.

      We found in this audit that the loss rate for weapons more than
doubled from 0.61 to 1.37 per month since our last review. We also
determined that 48 percent of the stolen weapons resulted from employees’
carelessness or failure to follow DEA policy because Special Agents left
weapons in either government or personally owned vehicles.

       In addition, the DEA was not ensuring that lost or stolen weapons and
laptops were entered in the NCIC database as required by DEA policy. We
also found that 46 percent of the Form 29s were not prepared in a timely
manner. These findings mirror weaknesses that we identified in our 2002
audit.

Recommendations

     We recommend that the DEA:

1.   Ensure that all DEA Forms 29 submitted are complete, accurate, and
     promptly submitted in accordance with DEA policy.

2.   Ensure that weapon and laptop computer losses are accurately and
     promptly entered into the NCIC database.

3.   Revise the DEA Agent Manual to include procedures for actions
     required by DEA personnel to report lost or stolen laptop computers.
     At a minimum the Agent Manual should be revised to require
     information on laptop make, serial number, model number, NCIC
     record number, and a statement on the contents of the laptop and
     whether it contained classified, sensitive, or PII. The DEA Agent
     Manual should also be revised to require that the investigation of lost

                                     27
     or stolen laptops verify the contents of any missing laptop and ensure
     this information is described in detail in the case files.

4.   Revise its policy to ensure that all laptop computers are encrypted.




                                    28
II.   INTERNAL CONTROLS

      In our 2002 audit we reported that the DEA had significant
      internal control weaknesses to account for and prevent losses of
      property such as weapons and laptops. This follow-up audit
      found that the DEA has improved its controls and procedural
      compliance in some areas, such as conducting physical
      inventories annually and ensuring adequate segregation of
      duties for personnel conducting inventories, performing
      reconciliations, and modifying the inventory system. However,
      we identified continued control weaknesses in several other
      areas. Specifically, the DEA failed to adequately maintain
      documentation for laptop disposals, did not report weapon and
      laptop computer losses to DOJ as required, and did not institute
      procedures to consistently ensure the return of laptop computers
      from separating employees.

      Internal controls relevant to accountable property management are
intended to provide reasonable assurance that resources are adequately
safeguarded and efficiently used and that reliable data is maintained and
properly reported. Management of an agency is responsible for the design,
implementation, and maintenance of internal control procedures. For this
audit we tested the DEA’s internal controls over weapons and laptops by
assessing its internal control structure and its compliance with procedures
for conducting inventories, maintaining sufficient and accurate property
records, reporting incidents of loss to the DOJ, accounting for the disposal of
property, and ensuring exiting employees remit DEA-issued property.

Physical Inventories

      DEA’s regulations require an annual inventory of all weapons and
laptop computers. In our 2002 audit report we noted that the DEA did not
perform annual physical inventories of all weapons, and the duties for
maintaining records of weapons were not appropriately segregated within
the Firearms Training Unit. We recommended that the DEA ensure that it
conducts annual physical inventories of weapons and adequately segregates
the duties of staff who conduct these inventories, perform reconciliations,
and modify the inventory system. We also recommended that the DEA
ensure that a valid inventory is available to all Property Custodial Assistants.

       During our follow-up audit we reviewed DEA-wide inventory reports for
fiscal years 2002 through 2006. We noted that DEA completed annual

                                      29
physical inventories of its weapons and laptop computers. Additionally, we
found that duties related to weapons inventory were adequately segregated
within the Firearms Training Unit. We also found that a valid inventory was
made available to all Property Custodial Assistants.

Reconciling Property Records to the Financial System

      In our 2002 audit report we determined that the DEA’s financial
system was not integrated with its weapons inventory system, which would
help ensure inventory accuracy, and the financial system did not include an
audit function that allowed edits made to the Weapons Database to be
tracked by an automated exception report. We recommended that the DEA
develop internal controls, operating manuals, audit trails, and appropriate
system requirements to ensure the reliability of inventories in its weapons
inventory system – the Weapons Database. In addition, DEA’s financial
system was not fully integrated with the Fixed Asset Subsystem. As a
result, the systems did not automatically verify whether the number of
laptops actually purchased agreed with the number of items placed into
inventory. We also recommended that the DEA integrate the financial
system and the Fixed Asset Subsystem so that the inventory is routinely
updated when a laptop computer is purchased.

      In response to our recommendations, the DEA implemented the
following internal controls:

      •     Entry capability for the Weapons Database is restricted to and
            appropriately segregated within the Firearms Training Unit.

      •     Field components are provided with their respective inventories
            for reconciliation purposes quarterly.

      •     The accuracy of the Weapons Database is verified quarterly by
            Primary Firearm Instructors and annually through a physical
            inventory.

The DEA’s financial system still has not been integrated with the Weapons
Database. However, based on our testing of the DEA’s internal controls
related to the Weapons Database, we consider the control procedures
instituted by the DEA to be sufficient for ensuring that information in the
Weapons Database is accurate, complete, and reliable.




                                     30
Weapons

       We confirmed that entries into the Weapons Database are restricted to
the Firearms Training Unit staff, and we found these duties were segregated
within the unit to provide the DEA increased control over its weapons. We
also tested the DEA’s accounting of purchased weapons by comparing
purchase documents to inventory data in the Weapons Database for the
period of October 1, 2005, through February 28, 2007. Our testing included
verifying the name of the manufacturer, serial number, model number, and
caliber. We examined 7 bulk weapons purchases totaling 525 weapons, and
we did not identify any discrepancies between the information on the
purchase records and in the Weapons Database.

Laptops

       We determined that the financial system has been fully integrated with
the Fixed Asset Subsystem used to maintain laptop computer inventories,
and the DEA has implemented policy requiring properly segregated duties of
staff conducting physical inventories, performing reconciliations, and
modifying the property management system.

       We tested the DEA’s accounting for all DEA laptop computer purchases
from October 1, 2005, through February 28, 2007. Our testing included
verifying purchase records to laptop inventory records maintained in the
Fixed Asset Subsystem, including the name of the manufacturer, serial
number, and DEA number. In total, we tested 1,056 laptop purchases. In
this testing, we were unable to trace the purchase documentation to Fixed
Asset Subsystem inventory records for 68 laptops (6 percent) because:

     •     no documentation was available for 8 purchased laptops;

     •     9 purchased laptops were not found in the inventory provided;
           and

     •     insufficient documentation was provided for 51 purchased
           laptops.

       Further, during our testing, the DEA was unable to provide the OIG
with requested purchase documentation in a reasonable amount of time
because the purchase documentation for laptops is not maintained at a
centralized location. In order to complete our testing we had to request that
the applicable field office provide the required supporting documentation. In
this effort, we had to make numerous requests of some field offices to

                                     31
provide the supporting purchase documentation or to provide sufficient
documentation to allow us to verify the laptop with the inventory system
data. These delays and the 68 laptops not in the DEA inventory system
indicate a need for better controls over laptop inventory records. We believe
the DEA should retain copies of all disposal documentation at centralized
locations in each division office to manage the program more effectively,
enable quicker reconciliations, and provide adequate audit trails.

Accuracy and Completeness of Property Records in
the Weapons Database and Fixed Asset Subsystem

      In our 2002 audit we selected a sample of weapons and laptop
computers from these systems and physically verified their existence. Also
in our 2002 audit, the DEA was able to provide all sampled weapons and
laptop computers for our physical verification.

       During our follow-up audit we tested the accuracy and completeness of
the Weapons Database and Fixed Asset Subsystem. To perform this testing
we selected samples of weapons and laptops and conducted physical
verifications to assess the completeness and accuracy of DEA inventories.

Weapons

       To perform our testing of the accuracy and completeness of the DEA’s
weapons inventory, we selected for verification purposes samples of DEA
assigned weapons. Our testing included all of the unassigned stock weapons
stored in the armory at the DEA Firearms Training Unit and stock weapons
maintained at DEA headquarters for the Foreign-deployed Advisory Support
Teams.36 In addition, we verified all DEA-owned weapons assigned to DEA
Special Agents in DEA headquarters’ offices and in DEA field offices that we
visited. We also tested personally owned weapons that Special Agents were
authorized to carry for official duty at these same locations.

     In total, we tested 4,331 DEA-owned and 763 personally owned
weapons. We were able to verify the existence of 4,320 (99.7 percent)
DEA-owned weapons and all 763 of the personally owned weapons tested.
We considered that the DEA presented the weapon if it was able to


       36
         According to the DEA, the Foreign-deployed Advisory Support Teams are
comprised of DEA Special Agents and Intelligence Research Specialists that provide
guidance and conduct bilateral investigations to identify and dismantle illicit drug trafficking
and money laundering organizations in Afghanistan.


                                              32
physically produce the weapon or appropriate documentation supporting that
the weapon existed or had been subsequently lost, stolen, destroyed, or
surplused after the draw date for our statistical sample. The following table
details our testing.

                         WEAPONS TESTED AND VERIFIED

                                     DEA Owned         Personally Owned
                Location         Tested    Verified   Tested       Verified
          DEA headquarters         388       388       189          189
          Firearms Training Unit 3,322     3,321         0            0
          Chicago                  101        94        80           80
          Denver                    41        41        57           57
          Houston                   78        78        91           91
          Los Angeles              171       168        91           91
          Miami                    102       102       131          131
          New York                 128       128       124          124
                 TOTALS          4,331     4,320       763          763
         Source: OIG inventory of DEA weapons

      Overall, our testing revealed that the DEA’s inventory records for
DEA-owned weapons were generally complete and accurate. For the 11
weapons that we could not verify, the DEA provided the following reasons for
being unable to produce the weapons.

     •       For seven weapons originally located at the Chicago field division
             office, the DEA believes, and the DEA Weapons Database
             indicated, that the weapons were destroyed. However, the DEA
             could not provide documentation to substantiate the destruction.

     •       Two weapons were assigned to Special Agents from the
             Los Angeles Field Division. These agents were on special
             assignments outside the division, and therefore their weapons
             could not be physically verified.

     •       We determined that one weapon from our sample was an
             erroneous entry in the Weapons Database. The weapon could
             not be tested because the DEA never actually purchased the
             weapon.

     •       One non-functional training weapon located at the Firearms
             Training Unit could never be located.

     We also tested DEA records to ensure appropriate authorization was
documented for DEA personnel carrying personal firearms on official duty.
                                          33
All DEA Special Agent personally owned weapons that we tested had
appropriate approvals for carrying the firearm in an official capacity. We
also verified that the weapons presented by the Special Agents were the
weapons named in the authorizations.
Laptop Computers

       In addition to performing verification testing of weapons, we
conducted similar testing on a sample of DEA laptop computers. Our sample
consisted of 3,007 of the DEA’s 7,381 total laptop computers. Similar to our
weapons testing, our sample of laptops included all laptops assigned to
DEA headquarters entities and the Firearms Training Unit as well as a
statistical sample of laptops assigned to the field offices where we performed
our fieldwork. We considered that the DEA had accounted for the laptop if it
was able to present the laptop for our verification or provide documentation
supporting that the laptop existed. We also accepted documentation
supporting that the laptop was lost, stolen, destroyed, or surplused after the
date our statistical sample was selected.

      As shown in the following table, the DEA was able to account for
2,965 (99 percent) of the 3,007 laptops in our sample. The DEA was unable
to provide adequate supporting documentation to confirm that 42 laptops
(1 percent) assigned to DEA headquarters locations had not been either lost
or stolen. In addition, we found that 20 had not been entered into the Fixed
Asset Subsystem. The DEA took immediate corrective action after we
brought this to their attention by adding these 20 laptops to its inventory in
the Fixed Asset Subsystem.

                  LAPTOP COMPUTERS TESTED AND VERIFIED

                      Location          Tested          Verified
               DEA headquarters            2,189          2,147
               Firearms Training Unit        554            554
               Chicago                        30              30
               Denver                         19              19
               Houston                        56              56
               Los Angeles                    59              59
               Miami                          39              39
               New York                       61              61
                      TOTALS               3,007          2,965
              Source: OIG inventory of DEA laptop computers

Reporting Losses to DOJ

      Besides internal DEA reporting procedures discussed in Finding I that
require DEA employees to report lost or stolen weapons and laptops to the
                                        34
DEA in a complete and timely manner. DOJ also requires all components to
submit to the DOJ Justice Management Division semiannual reports on
January 1 and July 1 summarizing the loss or theft of government property
that occurred within the preceding 6 months.37 In our 2002 audit we found
that the DEA did not submit any semiannual Department Theft Reports for
1999 and 2000, and the first semiannual report for 2001 was submitted
36 days late. In addition, the semiannual reports were inaccurate with
respect to the number of weapon losses. We recommended that the DEA
submit timely and complete semiannual Department Theft Reports to the
DOJ.

      In this follow-up audit we again examined the DEA’s submission of
semiannual Department Theft Reports. Additionally, we also analyzed in this
audit the DEA’s compliance with the DOJ regulations requiring all
components to immediately notify the DOJCERT of incidents involving the
loss of laptops. Properly reporting losses to the DOJ helps maintain the
DEA’s accountability during incidents of loss. Additionally, it assists in
recovering losses and mitigating any adverse impact, such as when losing a
laptop with sensitive information.

DOJ Semiannual Reports

       Our follow-up review found that the DEA has not corrected its
deficiency in reporting to the DOJ on the weapons and laptop computers that
were lost or stolen during semiannual periods. During the time period our
audit covered, 11 semiannual Department Theft Reports were supposed to
be submitted to the DOJ. However, the DEA was only able to provide, and
DOJ only had on file, three semiannual reports (January 1 to June 30, 2005;
June 1 to December 31, 2006; and January 1 to June 30, 2007). The DEA
did not submit semiannual reports for all of 2002 through 2004; July 1 to
December 31, 2005; and January 1 to May 31, 2006.

       We also reviewed the three Department Theft Reports submitted by
the DEA during our audit period and found that only one report was
complete and accurate. The report for the period ending December 31,
2006, did not report as many weapons and laptops missing as compared to
the files we reviewed at the Board of Professional Conduct. The report for
the period ending June 30, 2007, did not report any weapons missing even
though DEA records showed four weapons were reported lost during the

      37
         See DOJ Order 2630.2A, Protecting and Controlling Federally Controlled Property
and Loss/Theft Reporting Procedures.


                                           35
previous 6 months. The reports for the periods ending December 31, 2006,
and June 30, 2007, were submitted in a timely manner. However, we were
unable to determine if the report for the period ending June 30, 2005, was
submitted when required. When we asked about the eight missing reports,
the Deputy Assistant Administrator, Office of Administration, told us that the
administrative clerk responsible for preparing the semiannual theft reports
typed over the prior reports and failed to maintain a paper or electronic copy
the reports.

      During the period of January 1, 2002, through June 30, 2007,
87 weapons and 200 laptops should have been reported to the DOJ on
semiannual Department Theft Reports. As shown in the following table, DOJ
was not aware of 67 weapons and 176 laptops that were lost or stolen
because the DEA did not submit to the DOJ Justice Management Division the
required semiannual Department Theft Reports. Therefore, only 20 weapons
(23 percent) and 24 laptops (12 percent) were reported to the Justice
Management Division as required by DOJ regulations.

             ACCURACY OF DEA’S SEMIANNUAL REPORTS TO DOJ
         Semiannual Reports due June 30, 2002 through June 30, 2007

                           Weapon Losses                Laptop Losses
        Semiannual                        Not                          Not
          Period      DEA    Reported Reported    DEA     Reported Reported
          Ended      Records  to DOJ    to DOJ   Records   to DOJ    to DOJ
         06/30/02        4                   4       11                  11
         12/31/02       12                  12       62                  62
         06/30/03       10                  10       20                  20
         12/31/03        6                   6       52                  52
         06/30/04        6                   6       11                  11
         12/31/04       12                  12        9                   9
         06/30/05        8       18        (10)       3        6         (3)
         12/31/05       15                  15       13                  13
         06/30/06        6                   6        2                   2
         12/31/06        4        2          2       14        8          6
         06/30/07        4                   4        3       10         (7)
           Total        87       20         67     200        24       176
       Source: OIG analysis of DEA Board of Professional Conduct case files
                 and semiannual reports




                                        36
Department of Justice Computer Emergency Response Team

     DOJCERT assists in handling computer security incidents throughout
DOJ.38 DOJ regulations require all components to submit immediate reports
summarizing incidents involving the loss of both classified and unclassified
systems to DOJCERT.

      We contacted DOJCERT officials to determine if the DEA submitted the
required incident reports for laptop computers that were identified as lost or
stolen during our review period. The DOJ Assistant Director, Property
Management Services, told us that DOJCERT was not required to track or
report lost and stolen laptops prior to May 2006 when Office of Management
Budget Memorandum 06-15, Safeguarding PII was issued. In addition to
emphasizing an agency’s responsibility to safeguard PII, the memorandum
also reminded agencies of the responsibility to promptly report security
incidents. According to the DEA, it reported 15 laptops to the Board of
Professional Conduct as lost or stolen between May 2006 and June 2007.
However, DOJCERT only received reports from the DEA on three laptops
during this timeframe.

       We discussed this issue with the Unit Chief of the Validation, Integrity,
and Penetration Response Unit – the DEA office responsible for reporting lost
and stolen laptop incidents to DOJCERT. The Unit Chief told us that if the
DEA employee responsible for the lost or stolen laptop does not notify the
DEA Help Desk of the incident, then the Validation, Integrity, and
Penetration Response Unit would be unaware of the incident and thereby
unable to report it to DOJCERT. The Unit Chief said that his office reported
all laptop incidents reported to him by DEA personnel.

Disposals

      In our 2002 audit report we found that weapons excessed to law
enforcement agencies were supported by proper documentation, but the
DEA did not follow up with the law enforcement agencies to ensure that
shipped weapons were actually received. We recommended that the DEA
ensure confirmations for receipt of the weapons were documented by the


       38
           According to DOJCERT, computer security incidents are any unexpected,
unplanned event that could have a negative impact on IT resources. Computer security
incidents include the loss of both classified and unclassified systems, unauthorized removal
of computer equipment, and exploited weaknesses in a computer system that allows
unauthorized access to password files.


                                             37
Firearms Training Unit. For this follow-up audit, we again tested DEA
disposal procedures for its weapons and laptop computers.

      Our testing included verifying that DEA records contained proper DEA
supporting documentation for destroying and excessing weapons and
laptops, including the DEA Forms 12 – Receipt For Cash Or Other Items and
the DEA Forms 17 – Firearms Control Record (see Appendices IX and X).39
We also reviewed documentation on confirmations from law enforcement
agencies indicating receipt of DEA surplused weapons. During our follow-up
audit, we selected a statistical sample of excessed and destroyed weapons
and laptop computers using the data in the DEA’s Weapons Database and
Fixed Asset Subsystem for the period covering January 1, 2002, through
February 28, 2007.

Weapons

      According to the DEA Chief Armorer, who is responsible for surplusing
and destroying DEA weapons, the General Services Administration must
provide authorization before a weapon is surplused or destroyed. Weapons
that are excessed or destroyed are never deleted from the Weapons
Database; instead the weapon category column in the Weapons Database is
updated to indicate destroyed or surplused.

       Our statistical sample included 295 weapons (43 destroyed and
252 surplused) from a universe of 7,300 destroyed and surplused weapons.
We found that the DEA maintained appropriate supporting documentation for
all items tested, including completed DEA Forms 17 as appropriate and
confirmations from local law enforcement agencies affirming their receipt of
the weapons.

Laptop Computers

      DEA policy states that disposal documents for laptop computers must
be maintained for a period of 3 years after disposal. We selected a sample
of excessed and destroyed laptop computers from the DEA’s Fixed Asset
Subsystem database. Our sample included 166 disposed laptops from a
universe of 3,214 destroyed and excessed laptops. Our testing found that
the DEA could not provide sufficient supporting documentation for 15 of the

      39
         The DEA Form 12 – Receipt for Cash or Other Items and the DEA Form 17 –
Firearm Control Record are forms used by the DEA to track who has custody of laptop
computers and weapons.


                                           38
166 (9 percent) laptops that it disposed. For 13 of the 15 instances we
found that DEA did not retain documentation concerning the disposal for
3 years as required. The DEA provided insufficient documentation to support
the disposal for the other two instances.

       The DEA’s laptop disposal process is decentralized, and the supporting
documentation for disposals is maintained at each DEA location worldwide.
During our testing, the DEA was unable to provide requested disposal
documentation in a reasonable amount of time. We originally asked for
supporting documentation for disposals on June 28, 2007. However, it took
approximately 90 days to complete our testing. We had to make numerous
requests of some field offices to provide supporting disposal documentation
or to provide sufficient documentation to allow us to verify the disposal data
with the inventory system. Along with our recommendation for the DEA to
centralize its laptop inventory records, we also believe the DEA should retain
copies of all disposal documentation at centralized locations in each division
office to manage the program more effectively, enable quicker
reconciliations, and provide adequate audit trails of disposals. This added
control would also elevate the DEA’s oversight over laptop disposals and
increase the overall accountability for excessing laptops.

Exit Procedures for Departing Employees

       In our 2002 audit report we found that although there was a category
for weapons on the DEA’s Employee Clearance Record form, details such as
serial numbers or the make and model of DEA weapons assigned to the
outgoing employees were not required to be included on the form. In
addition, the form did not identify laptop computers as a sign-off item or
provide details of the type of accountable property that was retrieved from
an employee who left the DEA. We recommended that the DEA ensure that
details such as property descriptions, DEA property numbers, and weapon
serial numbers were included on the Employee Clearance Records for each
employee separating from the agency.

      The DEA Form 171a – Employee Clearance Record (see Appendix XII),
is used by the DEA to document that departing personnel have returned DEA
property assigned to the individual. Items such as building passes, laptops,
credentials, and weapons are included on the form. The DEA requires that
an Employee Clearance Record certifying that all DEA-issued property has
been returned to the DEA be completed for all departing employees. The
“Security Activity” section of the form addresses weapons and the
“Immediate Supervisor” section addresses personal custody property items,
which includes assigned laptops. The separating employee must obtain
                                     39
signatures of responsible officials (e.g., Primary Firearms Instructors and
Property Custodial Assistants) on the Employee Clearance Record verifying
that all DEA-issued weapons and laptops were turned over to the DEA before
employment separation.

      During our follow-up audit we reviewed Employee Clearance Records
at the selected DEA field division offices. We reviewed Employee Clearance
Records for departing employees for the period of January 1, 2005, through
August 2, 2007. We tested the forms to verify that for weapons the make,
model, caliber, and serial number was included, and the appropriate official
signed the form verifying receipt of the DEA-issued weapon. Our testing
found that the DEA was appropriately completing this section on the
Employee Clearance Record forms, providing the DEA a sound control over
the weapons assigned to departing employees.

      Our review of the Employee Clearance Record forms found that
appropriate DEA supervisors signed the form certifying that all personal
property items had been returned by the separating employee. However,
the DEA was still not documenting the Employee Clearance Records with
specifics on returned laptops, particularly DEA property numbers and laptop
make and model plus its serial numbers. Therefore, due to the lack of
specific details used in identifying a laptop computer on the Employee
Clearance Records, we were unable to determine whether the outgoing
employee returned the specific DEA-issued laptop.

      In 2002 the DEA revised its policy to strengthen its procedures for
ensuring that departing employees return all property that was issued to
them or reimburse the government for the cost of the property if it was not
returned. Our review concluded that the DEA’s employee exit controls for
weapons were adequate, and the DEA was complying with the associated
procedures. However, our testing of Employee Clearance Records revealed
that the DEA procedures to account for the proper return of DEA-issued
laptops were inadequate, thereby increasing the potential for property loss
upon employee separation.

Conclusion

       During this follow-up audit we found that the DEA has improved its
internal controls over its weapons and laptop computers in some areas, such
as in conducting annual physical inventories. However, our audit revealed
that other deficiencies in the DEA’s control over its weapons and laptop
computers continued since our previous audit. Specifically, the DEA failed to
adequately maintain documentation for laptop disposals, neglected to submit
                                     40
required semiannual reports of weapon and laptop losses to DOJ, and did not
institute adequate procedures to ensure that property is recovered from
employees before they leave DEA service.

Recommendations

     We recommend that the DEA:

5.   Ensure that each division office maintains supporting documentation
     for laptop purchases and disposals.

6.   Prepare and submit to DOJ Justice Management Division complete and
     accurate semiannual Department Theft Reports regarding the loss of
     weapons and laptop computers and to DOJCERT incident reports
     regarding the loss of laptop computers.

7.   Strengthen the exit processing for departing employees to ensure that
     documentation on the Employee Clearance Record clearly indicates
     specifics on remitted laptops.




                                    41
               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS


       The audit of the DEA’s control over weapons and laptop computers was
conducted in accordance with Government Auditing Standards. As required
by these standards, we tested selected transactions and records to obtain
reasonable assurance about the DEA’s compliance with laws and regulations
that, if not complied with, we believe could have a material effect on
operations. Compliance with laws and regulations applicable to the DEA’s
control over weapons and laptops is the responsibility of its management.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific requirements for which we conducted tests are
contained in the OMB Circular No. A-123, Management’s Responsibility for
Internal Control and the Justice Property Management Regulations.

      Our audit identified several areas where the DEA was not in
compliance with the laws and regulations referred to above. Specifically, we
determined that the DEA did not always report its lost and stolen weapons
and laptops to DOJ as required. Additionally, we found that the DEA did not
notify DOJCERT of all laptops lost or stolen. With respect to transactions
that were not tested, nothing came to our attention that caused us to
believe that DEA management was not in compliance with the laws and
regulations cited above.




                                     42
                                                                 APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this follow-up audit of the DEA’s control over weapons
and laptop computers. The purpose of the follow-up audit was to assess
whether adequate corrective action had been taken on findings and
22 recommendations in the August 2002 audit report. Those
recommendations stated that the DEA should:

     (1)       reiterate to all DEA employees the guidelines for the security,
               safety, and storage of weapons as outlined in the DEA
               firearms policy;

     (2)       reiterate to all DEA employees the policy for reporting losses
               of DEA property as outlined in the DEA firearms policy;

     (3)       provide semiannual Department Theft Reports for the
               reporting periods from July 1 to December 31, 1999, and
               January 1 to December 31, 2000;

     (4)       ensure the timely and complete submission of future
               semiannual Department theft reports;

     (5)       ensure that the lost, missing, or stolen weapons are
               promptly entered into the NCIC;

     (6)       ensure that appropriate action is taken on laptop computers
               that are subsequently determined to be lost, stolen, or
               missing as a result of the reconciliation of the property
               inventory;

     (7)       ensure that a perpetual list of lost, stolen, or missing laptop
               computers is maintained and that notifications and
               investigative procedures are performed;

     (8)       develop internal controls, operating manuals, audit trails,
               and system requirements appropriate to ensure the reliability
               of inventory data in the weapons database;

     (9)       ensure that a valid inventory is available to all Property
               Custodial Assistants based on the completed reconciliation of
               the Fixed Asset Subsystem inventory records to correct the
               problems created from the conversion the old M-204 system;
                                     43
(10)   integrate the DEA’s financial system with the property
       management systems so that the inventory is routinely
       updated in a timely manner when a weapon or laptop
       computer is purchased;

(11)   ensure that all purchases are entered in a timely manner into
       the Fixed Asset Subsystem inventory;

(12)   ensure that employees who receive shipments of weapons do
       not have access to the weapons database;

(13)   record in the Fixed Asset Subsystem the names of the
       individuals who are accountable for laptop computers instead
       of the Property Custodial Assistants;

(14)   ensure Property Custodial Assistants maintain adequate
       property records to show current assignment of laptop
       computers;

(15)   ensure that field division level Property Custodial Assistants
       are advised in a timely manner by DEA headquarters of
       purchases and transfers of property items that pertain to
       their division;

(16)   ensure that hand receipts for transfers are used throughout
       the DEA;

(17)   ensure that details such as property descriptions, DEA
       property numbers, and weapon serial numbers are included
       on Employee Clearance Records;

(18)   ensure that updates to the property system are made in a
       timely manner;

(19)   ensure that the physical inventory of weapons is performed
       annually as required by DEA headquarters;

(20)   segregate the duties of staff who take physical inventories,
       perform reconciliations, and modify the property
       management system;



                             44
      (21)      ensure that inventories are validated as required for each
                unit within DEA headquarters; and

      (22)      ensure that confirmations from law enforcement entities are
                received and forwarded to the Firearms Training Unit when
                weapons are excessed.

      Overall, the DEA agreed with these recommendations and stated that
it had taken steps to address them. As of April 20, 2005, all
recommendations had been closed.

      We performed the follow-up audit in accordance with the Government
Auditing Standards and included such tests of the records and procedures
that we considered necessary. Our testing covered the period between
January 1, 2002, and June 30, 2007.

      We obtained an understanding of the control environment for weapons
from DEA management at the Firearms Training Unit located in Quantico,
Virginia, which is responsible for the overall management of the weapon
property system for all DEA weapons. We obtained an understanding of the
control environment for DEA laptop computers from the Property
Management Unit located at DEA headquarters. We performed on-site audit
work between May 2007 and July 2007 at DEA headquarters’ offices and the
Firearms Training Unit. We conducted on-site audit work between July 2007
and August 2007 at the DEA field division offices in Chicago, Illinois; Denver,
Colorado; Houston, Texas; Los Angeles, California; Miami, Florida; and
New York, New York.

      To examine the DEA’s efforts to identify lost and stolen weapons and
laptop computers, we obtained a list of all such losses that occurred since
January 1, 2002, and reviewed the available files and the circumstances
surrounding those losses. We also obtained DOJ Semiannual Reports of lost
or stolen property that were submitted to the DOJ Security Officer. For lost
or stolen weapons, we queried NCIC to determine if information on the lost
property was entered in the NCIC database.

      In addition to the testing detailed above, we: (1) reviewed applicable
laws, policies, regulations, manuals, and memoranda; (2) interviewed
appropriate personnel; (3) tested internal controls; (4) reviewed property
and accounting records (with an emphasis on activity since January 1,
2002); and (5) physically inspected property. We tested internal controls
pertaining to weapons and laptop computers in the following areas:

                                      45
     •     purchasing and recording in the official property database (the
           Fixed Asset Subsystem for laptops and the Weapons Database
           for firearms),

     •     the return of items from separated employees,

     •     physical inventories, including separation of duties, and

     •     disposals, including signed receipts for surplused weapons.

      We tested these controls through a sample from the DEA’s
14,449 weapons and 7,381 laptop computers reported in the corresponding
inventory records as of April 2007. In total, we reviewed 7,306 items,
including 4,299 weapons and 3,007 laptop computers. Details about the
universe from which these samples were taken and about the samples
themselves may be found in Appendix VIII. Our tests also included the
following:

     •     Samples of weapon and laptop computer purchases, as recorded
           in purchase documents, to ensure that the items were recorded
           in the Fixed Asset Subsystem and the Weapons Database.

     •     100 percent testing of stock weapons maintained at the Firearms
           Training Unit, and weapons assigned to Special Agents at
           DEA headquarters’ offices to ensure the item was accurately
           recorded in the Weapons Database.

     •     100 percent testing of laptop computers located at
           DEA headquarters’ offices to ensure the laptop computers were
           accurately recorded in the Fixed Asset Subsystem.

     •     Testing of personally owned weapons authorized to be carried for
           official use by Special Agents included in our testing conducted
           at DEA headquarters’ offices and at the field sites where we
           conducted our sample testing.

     We also reviewed the documentation at field site locations where we
conducted our sample testing to determine if all weapons and laptop
computers were returned. Moreover, we reviewed disposal actions initiated
between January 1, 2002, and February 28, 2007, to ensure these actions
were adequately supported.



                                     46
                                                            APPENDIX II


                  ABBREVIATIONS AND FORMS


Abbreviations:

     DOJ         Department of Justice
     DOJCERT     Department of Justice Computer Emergency Response
                 Team
     FBI         Federal Bureau of Investigation
     NCIC        National Crime Information Center
     OIG         Office of the Inspector General
     PII         Personally Identifiable Information
     POV         Privately Owned Vehicle
     SEPS        Security and Emergency Planning Staff


Forms:

     DEA-12      Receipt for Cash or Other Items
     DEA-17      Firearms Control Record
     DEA-29      Personal Property Negligence/Liability Assessment
     DEA-171a    Employee Clearance Record
     DEA-609     Request for Authority to Carry a Personally Owned Firearm




                                   47
This page intentionally left blank.




                48
                                                                               APPENDIX III


  CIRCUMSTANCES AND ACTIONS TAKEN FOR LOST AND
                STOLEN WEAPONS


           DEA
         Form 29
 Item     Report
Number     Date       Description of Incident                                   Action Taken
  1      11/1/2001    Weapon determined missing during inventory.                  Clearance

  2       9/6/2001    Weapon reported destroyed in Bombing and fire in1990.        Clearance

  3      1/18/2002    Weapon stolen from Special Agent.                            Clearance

                      Weapon determined unaccounted for during inventory -
  4      4/19/2002    Assigned to deceased agent. Action taken to remove           Clearance
                      weapon from inventory in March 2002.
                      Weapon stolen from Special Agent's privately owned
  5      5/29/2002                                                              Suspended 1 day
                      vehicle parked at a school.
                      Weapon stolen -- left weapon on boat loading dock area
  6      5/30/2002                                                              Suspended 1 day
                      - walked away - came back later and weapon was gone.
                      Weapon stolen from an official government vehicle
                      parked at restaurant while Special Agent had lunch.        Administratively
  7      6/12/2002
                      Special Agent transferred to another agency before            closed
                      action taken.
                      Weapon stolen from official government vehicle while
  8      10/17/2002                                                             Suspended 3 days
                      agent was exercising at public facility.
                      Weapon stolen from unattended official government         Suspended 1 day
  9      7/31/2002
                      vehicle parked at hotel.                                  and paid $516.63
                      Weapon stolen from official government vehicle at
                                                                                Suspended 1 day
  10     11/20/2002   autobody shop; Special Agent left weapon in range bag
                                                                                and paid $471.00
                      in the car.
                      Weapon stolen from privately owned vehicle parked at
  11     12/9/2002                                                              Suspended 3 days
                      shopping center.
                      Weapon stolen from official government vehicle parked
  12     11/22/2002                                                             Suspended 1 day
                      at residence.
                      Weapon left at range or removed from official             Suspended 2 days
  13     12/10/2002
                      government vehicle-unknown.                               and paid $210.00
                      Weapon stolen from privately owned vehicle while
  14     10/20/2002                                                             Suspended 3 days
                      Special Agent was in Canada.
                      Weapon stolen from privately owned vehicle while at       Suspended 1 day
  15     1/13/2003
                      restaurant.                                               and paid $532.13
                      Weapon stolen from official government vehicle that
  16      3/3/2003                                                              Suspended 1 day
                      was burglarized.
                      Weapon stolen from official government vehicle that
  17      3/3/2003                                                              Suspended 1 day
                      was burglarized.


                                             49
           DEA
         Form 29
 Item     Report
Number     Date       Description of Incident                                    Action Taken
                      Weapon stolen from official government vehicle while at
  18     2/27/2003                                                               Suspended 3 days
                      gym.
                      Weapon stolen from privately owned vehicle while
  19      3/4/2003                                                               Suspended 3 days
                      Special Agent was shopping.
                      Weapon lost transferring between official government
  20      5/7/2003                                                               Suspended 1 day
                      vehicle and privately owned vehicle.

  21     4/30/2003    Weapon lost out of motorcycle day pack during day trip.    Suspended 1 day

                      Weapon stolen from official government vehicle parked
  22      2/6/2003                                                               Suspended 4 days
                      at residence.

  23     9/22/2003    Weapon stolen from briefcase in residence.                    Clearance
                      Weapon & official government vehicle destroyed in a
  24     11/3/2003                                                                  Clearance
                      wildfire.
                      Weapon was missing a part when Special Agent
  25     1/26/2004                                                               Letter of Caution
                      reported for military duty.
                      Weapon stolen from Special Agent's locked residence
  26     5/20/2004                                                                  Clearance
                      which had burglar alarm.

  27     2/26/2004    Weapon stolen from residence - forced entry.                  Clearance

  28     4/30/2004    Weapon stolen from residence in Lima, Peru.                   Clearance

                      Weapon stolen from official government vehicle parked
  29      9/9/2004                                                               Suspended 3 days
                      at restaurant.
                      Weapon stolen from official government vehicle parked
  30     7/21/2003                                                               Suspended 5 days
                      at a summer rental house.
                                                                                  Suspended 30
  31      9/1/2004    Weapon lost – unable to determine when and where.
                                                                                      days
                      Weapon lost – Special Agent lost backpack and was          Suspended 1 day
  32      9/2/2004
                      unable to determine where.                                 and paid $237.82
                      Weapon lost – Special Agent/Primary Firearms
  33     10/12/2004                                                              Letter of Caution
                      Instructor failed to follow up after sending for repair.
                      Weapon stolen from privately owned vehicle parked at       Suspended 3 days
  34     10/19/2004
                      friend's residence.                                        and paid $185.95
                      Weapon lost – Special Agent/Primary Firearms                   Letter of
  35     1/10/2003
                      Instructor failed to put weapon into office inventory.        Reprimand
                      Weapon stolen from official government vehicle parked
  36     10/12/2004                                                              Suspended 4 days
                      at residence.
                      Weapon stolen from official government vehicle parked
  37     10/12/2004                                                              Suspended 4 days
                      at residence.
                      Weapon stolen from official government vehicle parked
  38     10/14/2004                                                              Suspended 3 days
                      at restaurant.


                                               50
           DEA
         Form 29
 Item     Report
Number     Date       Description of Incident                                      Action Taken
                      Weapon stolen from official government vehicle parked
                                                                                   Suspended 2 days
  39     11/22/2004   at convenience store while Special Agent was buying
                                                                                   and paid $292.22
                      coffee.
                      Weapon stolen – Special Agent left weapon in official        Suspended 4 days
  40     11/15/2004
                      government vehicle that was burglarized.                     and paid $953.60
                      Weapon stolen – Special Agent left weapon in official        Suspended 4 days
  41     11/15/2004
                      government vehicle that was burglarized.                     and paid $953.60
                      Weapon stolen – Special Agent left weapon in official        Suspended 2 days
  42      2/7/2005
                      government vehicle that was burglarized.                     and paid $138.12
                      Weapon stolen – Special Agent left weapon in privately       Suspended for 3
  43      1/4/2005
                      owned vehicle that was burglarized.                               days
                      Weapons stolen – inactivated weapons used as part of
  44     2/18/2005                                                                    Clearance
                      the DEA's road museum.
                      Weapons stolen – inactivated weapons used as part of
  45     2/18/2005                                                                    Clearance
                      the DEA's road museum.
                      Weapons stolen – inactivated weapons used as part of
  46     2/18/2005                                                                    Clearance
                      the DEA's road museum.

  47     3/16/2005    Weapon stolen from residence in Puerto Rico.                    Clearance

  48     3/16/2005    Weapon stolen from residence in Puerto Rico.                    Clearance

                      Weapon stolen from official government vehicle parked        Suspended 3 days
  49     4/18/2004
                      in front of residence.                                       and paid $151.55
                      Weapon lost - not sure where or how loss occurred;               Letter of
  50      7/1/2005
                      may have fallen into trash basket at work.                      Reprimand
                      Weapon stolen apparently by moving company
  51     8/23/2005                                                                    Clearance
                      employees.
                      Weapon stolen apparently by moving company
  52     8/23/2005                                                                    Clearance
                      employees.
                      Weapon lost – Special Agent left weapon on roof of car           Letter of
  53     10/5/2005
                      and drove off.                                                  Reprimand
                      Weapon that cannot fire live ammunition lost –
  54     11/25/2005                                                                   Clearance
                      determined missing during inventory.
                      Weapon stolen – Special Agent left firearm in his official
  55     11/28/2005                                                                Suspended 3 days
                      government vehicle which was burglarized.
                      Weapon stolen – Special Agent put weapon in purse
  56     10/18/2005                                                                Suspended 3 days
                      while at social function at bar in Jamaica.
                      Weapons stolen – Special Agent /Primary Firearms
  57      1/4/2006    Instructor had weapons in official government vehicle        Suspended 7 days
                      parked in residence driveway.
                      Weapons stolen – Special Agent /Primary Firearms
  58      1/4/2006    Instructor had weapons in official government vehicle        Suspended 7 days
                      parked in residence driveway.

                                              51
           DEA
         Form 29
 Item     Report
Number     Date       Description of Incident                                     Action Taken
                      Weapon stolen – Special Agent placed in a briefcase
  59     3/29/2006                                                                Suspended 1 day
                      and left behind in a restaurant.
                      Weapon stolen out of Special Agent’s office. It was
  60     3/16/2006                                                                   Clearance
                      believed that a carpet installer stole it.
                      Weapons (shotguns) stolen out of official government
  61     12/13/2005                                                               Suspended 4 days
                      vehicle.
                      Weapons (shotguns) stolen out of official government
  62     12/13/2005                                                               Suspended 4 days
                      vehicle.

  63     6/29/2006    Weapon stolen when parents' home was burglarized.              Clearance

  64     7/18/2006    Weapon stolen – Special Agent's residence burglarized.         Clearance
                      Weapon stolen – Special Agent assigned to Bogota left
                      firearm in his official government vehicle to go inside a
  65     4/12/2006                                                                Suspended 5 days
                      school building and his vehicle was burglarized during
                      the 50 minutes he was inside.
                      Weapon stolen when Assistant Special Agent in Charge
  66     4/16/2006    left firearm in his official government vehicle which was   Suspended 5 days
                      broken into and his personal firearm was stolen.
                      Weapon stolen from official government vehicle parked
  67     10/13/2006   at middle school while Special Agent watched a football     Suspended 7 days
                      game.
                      Weapon stolen from official government vehicle parked       Suspended 5 days
  68     11/17/2003
                      in restaurant parking lot.                                  and paid $474.93
                      Weapon stolen – Special Agent left firearm in official
  69      9/8/2006    government vehicle while getting lunch and vehicle was      Suspended 7 days
                      burglarized.
                      Weapon stolen – Special Agent put firearm in glove box
                                                                                   Administratively
  70      2/5/2007    because nightclub was searching patrons and he didn't
                                                                                      Closed
                      want to give away that he was law enforcement.

  71      9/5/2006    Weapon stolen when residence was burglarized.                  Clearance

  72      5/8/2007    Weapon stolen when residence was burglarized.                  Clearance

  73      4/5/2007    Weapon stolen when residence was burglarized.                  Clearance

  74     11/28/2001   Weapon lost in transit to receive for repairs.                 Clearance

                      Weapon lost – Special Agent left weapon at police firing
  75     7/12/2002                                                                Letter of Caution
                      range.
                      Weapon stolen from official government vehicle parked
  76     7/29/2002                                                                Suspended 1 day
                      at residence in driveway.
                      Weapon stolen from official government vehicle parked
  77     7/29/2002                                                                Suspended 1 day
                      in residence driveway.

                                               52
             DEA
           Form 29
 Item       Report
Number       Date       Description of Incident                                 Action Taken
                        Weapon stolen when Special Agent left the weapon in
   78      11/22/2002                                                           Letter of Caution
                        an official government vehicle for 3 days.
                        Weapon stolen from official government vehicle parked
   79       6/4/2003                                                            Suspended 3 days
                        at residence.
                        Weapon stolen from hotel room - Special Agent out on
   80      11/21/2002                                                              Clearance
                        balcony.
                        Weapon stolen from police vehicle while Special Agent
   81      10/14/2003                                                           Suspended 1 day
                        had lunch.

   82      1/16/2004    Weapon stolen from locked bedroom at residence.            Clearance

                        Weapon stolen from official government vehicle while
   83      8/18/2003                                                            Suspended 4 days
                        watching son at football practice.
                        Weapon stolen from official government vehicle parked
   84      12/17/2004                                                           Suspended 5 days
                        at residence.
                        Weapon stolen from privately owned vehicle parked in
   85      9/20/2005                                                            Suspended 3 days
                        residence driveway.

   86      1/25/2006    Weapon stolen by Special Agent's son.                      Clearance

   87      10/18/2005   Weapon lost – Special Agent left weapon on airplane.    Suspended 7 days

   88      12/12/2005   Weapon lost – Special Agent left weapon on airplane.    Suspended 3 days

                        Weapon lost – Special Agent left weapon in airport
   89      12/4/2005                                                            Letter of Caution
                        restroom.
                        Weapon lost – Special Agent left weapon in
   90      4/25/2006                                                            Suspended 5 days
                        supermarket.
                        Weapon lost or unaccounted for – during Hurricane
                        Katrina response on August 30, 2005, multiple weapons
   91       4/6/2007                                                               Clearance
                        were provided to commissioned local law enforcement
                        officers and documentation was not always obtained.
Source: OIG analysis of DEA Board of Professional Conduct case files




                                               53
This page intentionally left blank.




                54
                                                                                   Appendix IV


                CIRCUMSTANCES AND ACTIONS TAKEN
                  FOR LOST AND STOLEN LAPTOPS40
              BOARD OF PROFESSIONAL CONDUCT CASES OPENED
                  JANUARY 1, 2002 THROUGH JUNE 30, 2007


                 DEA
               Form 29
  Item          Report                                                        Contents     Action
 Number          Date                  Description of Incident                of Laptop    Taken
                           Laptop sent to Information Systems for disposal
                                                                              Unable to
               1/2/2002    without proper documents. Whereabouts                          Clearance
                                                                              Determine
                           unknown.
                           Laptop sent to Information Systems for disposal
                                                                              Unable to
     1         1/2/2002    without proper documents. Whereabouts                          Clearance
                                                                              Determine
                           unknown.
                           Laptop sent to Information Systems for disposal
                                                                              Unable to
               1/2/2002    without proper documents. Whereabouts                          Clearance
                                                                              Determine
                           unknown.
                           Laptop was replaced on 6/17/98 and no
                                                                              Unable to
     2         1/4/2002    documentation could be found to show the                       Clearance
                                                                              Determine
                           exchange. Laptop most likely disposed of.
                           Laptop cannot be located during inventory and      Unable to
     3         9/6/2001                                                                   Clearance
                           investigation and search were negative.            Determine
                                                                              Unable to
     4        1/14/2002                                                                   Clearance
                           Missing laptop since May 1998.                     Determine
                           Laptop was returned to Computer Specialist and
                                                                              Unable to
     5        10/30/2001   custody was not maintained. Whereabouts                        Clearance
                                                                              Determine
                           unknown.
                           Laptop not found during inventory. Investigation
                                                                              Unable to
     6        1/17/2002    was negative. Laptop believed to be surplused                  Clearance
                                                                              Determine
                           and disposed.
                           Laptop not found during inventory and no           Unable to
     7        11/14/2001                                                                  Clearance
                           records are available to show its whereabouts.     Determine
                           Laptop not found during inventory and no
                                                                              Unable to
     8        10/29/2001   records exist to account for it. Laptop                        Clearance
                                                                              Determine
                           considered obsolete.
                           Laptop not found during inventory and no
                                                                              Unable to
     9         2/5/2002    records exist to account for it. Laptop                        Clearance
                                                                              Determine
                           considered obsolete.
                           Investigation determined these laptops were
                                                                              Unable to
              10/29/2001   used for parts and the remainder were burned                   Clearance
                                                                              Determine
                           during a scheduled DEA burn in Modesto, CA.
    10
                           Investigation determined these laptops were
                                                                              Unable to
              10/29/2001   used for parts and the remainder were burned                   Clearance
                                                                              Determine
                           during a scheduled DEA burn in Modesto, CA.


         40
         As previously reported, DEA did not begin encrypting laptops until
November 2006. Therefore, it is unlikely that any laptop lost before this date was
encrypted.

                                                55
                 DEA
               Form 29
  Item          Report                                                       Contents     Action
 Number          Date                  Description of Incident               of Laptop    Taken
                           Investigation determined these laptops were
                                                                             Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
                                                                             Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Investigation determined these laptops were
                                                                             Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
                                                                             Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Investigation determined these laptops were
                                                                             Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
                                                                             Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Investigation determined these laptops were
                                                                             Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
                                                                             Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Investigation determined these laptops were
    10                                                                       Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
(continued)                                                                  Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Investigation determined these laptops were
                                                                             Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
                                                                             Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Investigation determined these laptops were
                                                                             Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
                                                                             Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Investigation determined these laptops were
                                                                             Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
                                                                             Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Investigation determined these laptops were
                                                                             Unable to
              10/29/2001   used for parts and the remainder were burned                  Clearance
                                                                             Determine
                           during a scheduled DEA burn in Modesto, CA.
                           Laptop was turned in for destruction and stored
                           in a secure facility. DEA personnel disposed of
                                                                             Unable to
    11        8/10/2001    obsolete equipment but proper documentation                   Clearance
                                                                             Determine
                           was not completed so whereabouts of laptop is
                           unknown. Assumed destroyed.
                                                                             Unable to
    12         2/5/2002    Found missing during routine inventory in 1998.               Clearance
                                                                             Determine
                           Special Agent accidentally packed the laptop
                           with household goods before move. Laptop          Unable to    Letter of
    13          UTD
                           was missing when household goods were             Determine   Reprimand
                           delivered to new location.
                                                                             Unable to    Letter of
    14         4/8/2002    Discovered during inventory.
                                                                             Determine   Counseling
                           A shared laptop was not found during an
                           inventory check. An investigation was             Unable to    Letter of
    15        5/13/2002
                           undertaken with negative results. Laptop was      Determine   Counseling
                           obsolete at the time of the inventory.




                                                56
           DEA
         Form 29
 Item     Report                                                       Contents      Action
Number     Date                  Description of Incident               of Laptop     Taken
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
         5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
         5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
         5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
         5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
  16     5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
         5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
         5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
         5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptops reflected on SAOP's inventory but
                     unable to locate at the Office of Resource        Unable to
         5/9/2002                                                                  Clearance
                     Management. Laptops are obsolete and              Determine
                     assumed destroyed.
                     Laptop determined missing during inventory but    Unable to
  17     8/28/2002                                                                 Clearance
                     was not removed from the listing until 8/02.      Determine
                     Laptop disposed in 1994 but not removed from      Unable to
  18       UTD                                                                     Clearance
                     inventory.                                        Determine
                     Laptop was replaced by UNYSIS but the DEA #       Unable to
  19     5/6/2002                                                                  Clearance
                     was not transferred to replacement computer.      Determine
                                                                                     Letter of
                                                                                   Reprimand
                     Laptop was stolen when agent left it unattended   Unable to
  20     6/5/2002                                                                  - Financial
                     at hotel pool.                                    Determine
                                                                                    Liability -
                                                                                      $1,050


                                          57
            DEA
          Form 29
 Item      Report                                                         Contents      Action
Number      Date                  Description of Incident                 of Laptop     Taken
                      Laptop sent to Information Systems for repairs.
                      Repair was not warranted and item was               Unable to
  21     8/30/2002                                                                    Clearance
                      surplused without proper records and cannot be      Determine
                      found during inventory.
                                                                                        Letter of
                      Telecommunications Specialist left laptop in                    Reprimand
                                                                          Unable to
  22      9/3/2002    official government vehicle in front of residence               - Financial
                                                                          Determine
                      overnight. Rear window broken, laptop stolen.                    Liability -
                                                                                         $499
                      Could not locate during routine inventory -
                                                                          Unable to
  23     5/16/2002    believed to have been replaced with another                     Clearance
                                                                          Determine
                      laptop that was disposed of.
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
  24     10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/31/2002   Items reported missing at inventory.                            Clearance
                                                                          Determine
                                                                          Unable to
         10/28/2002   Unable to locate during routine inventory.                      Clearance
                                                                          Determine
  25
                                                                          Unable to
         10/28/2002   Unable to locate during routine inventory.                      Clearance
                                                                          Determine
                                                                          Unable to
  26     10/1/2002    Temporary quarters in St. Maarten burglarized.                  Clearance
                                                                          Determine
                      Could not locate during routine inventory -
                                                                          Unable to
  27     10/28/2002   records indicate destroyed in March 2000 but                    Clearance
                                                                          Determine
                      lacking proper documentation.


                                            58
           DEA
         Form 29
 Item     Report                                                         Contents     Action
Number     Date                   Description of Incident                of Laptop    Taken
                     Amendment to previous report, instead of DEA        Unable to
  28     11/6/2002                                                                   Clearance
                     193841 the # 193842 should be reported.             Determine
                     Could not locate during inventory and transfer to   Unable to
  29     10/2/2002                                                                   Clearance
                     new storage facility.                               Determine
                     Could not locate during routine inventory - three   Unable to
         9/27/2002                                                                   Clearance
                     of responsible retired.                             Determine
                     Could not locate during routine inventory - three   Unable to
         9/27/2002                                                                   Clearance
                     of responsible retired.                             Determine
                     Could not locate during routine inventory - three   Unable to
         9/27/2002                                                                   Clearance
                     of responsible retired.                             Determine
  30
                     Could not locate during routine inventory - three   Unable to
         9/27/2002                                                                   Clearance
                     of responsible retired.                             Determine
                     Could not locate during routine inventory - three   Unable to
         9/27/2002                                                                   Clearance
                     of responsible retired.                             Determine
                     Could not locate during routine inventory - three   Unable to
         9/27/2002                                                                   Clearance
                     of responsible retired.                             Determine
                     Item noted as missing in February 2000, DEA
                                                                         Unable to
  31     8/14/2001   FORM 29 Reported 8/14/01, Investigator signed                   Clearance
                                                                         Determine
                     12/2/2002.
                     Laptop left at Gateway Center Security              Unable to    Letter of
  32     10/3/2002
                     checkpoint. Laptop was not recovered.               Determine   Counseling
                     Laptop discovered missing during inventory and
                     later found to be surplused, awaiting               Unable to
  33     11/7/2002                                                                   Clearance
                     destruction, or was absent from the 1998            Determine
                     inventory.
                     Laptop discovered missing during inventory and
                     later found to be surplused, awaiting               Unable to
         11/7/2002                                                                   Clearance
                     destruction, or was absent from the 1998            Determine
                     inventory.
                     Laptop discovered missing during inventory and
                     later found to be surplused, awaiting               Unable to
         11/7/2002                                                                   Clearance
                     destruction, or was absent from the 1998            Determine
                     inventory.
                     Laptop discovered missing during inventory and
                     later found to be surplused, awaiting               Unable to
         11/7/2002                                                                   Clearance
                     destruction, or was absent from the 1998            Determine
                     inventory.
                     Laptop discovered missing during inventory and
                     later found to be surplused, awaiting               Unable to
         11/7/2002                                                                   Clearance
                     destruction, or was absent from the 1998            Determine
                     inventory.
                     Laptop discovered missing during inventory and
                     later found to be surplused, awaiting               Unable to
         11/7/2002                                                                   Clearance
                     destruction, or was absent from the 1998            Determine
                     inventory.




                                          59
                 DEA
               Form 29
  Item          Report                                                         Contents        Action
 Number          Date                   Description of Incident                of Laptop       Taken
                           Laptop discovered missing during inventory and
                           later found to be surplused, awaiting               Unable to
              11/7/2002                                                                       Clearance
                           destruction, or was absent from the 1998            Determine
                           inventory.
                           Laptop discovered missing during inventory and
                           later found to be surplused, awaiting               Unable to
              11/7/2002                                                                       Clearance
                           destruction, or was absent from the 1998            Determine
    33                     inventory.
(continued)                Laptop discovered missing during inventory and
                           later found to be surplused, awaiting               Unable to
              11/7/2002                                                                       Clearance
                           destruction, or was absent from the 1998            Determine
                           inventory.
                                                                                 Did not
                           Special Agent left laptop in taxi in Bangkok,         contain
                                                                                               Letter of
    34        11/22/2002   contained no sensitive or classified information.   sensitive or
                                                                                              Counseling
                           Laptop was not recovered.                            classified
                                                                               information
                           Inventory February 2002 showed laptop, it was
                                                                               Unable to
    35        10/9/2002    noted as missing July 2002, responsible person                     Clearance
                                                                               Determine
                           is no longer a DEA employee.
                                                                               Unable to
    36        11/12/2002   Government leased quarters burglarized.                            Clearance
                                                                               Determine
                           Loaned to Mexican counterparts and never            Unable to
    37        11/19/2002                                                                      Clearance
                           returned.                                           Determine
                           Items reported missing at inventory / Item          Unable to
    38        11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine
                           Items reported missing at inventory / Item          Unable to
              11/21/2002                                                                      Clearance
                           destroyed.                                          Determine

                                                 60
                 DEA
               Form 29
  Item          Report                                                        Contents        Action
 Number          Date                   Description of Incident               of Laptop       Taken
                           Items reported missing at inventory / Item         Unable to
              11/21/2002                                                                     Clearance
                           destroyed.                                         Determine
                           Items reported missing at inventory / Item         Unable to
              11/21/2002                                                                     Clearance
                           destroyed.                                         Determine
                           Items reported missing at inventory / Item         Unable to
              11/21/2002                                                                     Clearance
                           destroyed.                                         Determine
                           Items reported missing at inventory / Item         Unable to
              11/21/2002                                                                     Clearance
    38                     destroyed.                                         Determine
(continued)                Items reported missing at inventory / Item         Unable to
              11/21/2002                                                                     Clearance
                           destroyed.                                         Determine
                           Could not locate during routine inventory - File
                                                                              Unable to
    39          UTD        states DEA-29 was completed, but it was not in                    Clearance
                                                                              Determine
                           the file. - Agent had retired.
                           Assigned to group-no one person totally
                                                                              Unable to
    40         1/9/2003    responsible-inventory showed missing - last                       Clearance
                                                                              Determine
                           seen 1994.
                           An old laptop could not be accounted for during
                                                                              Unable to
    41        10/18/2002   inventory, a search of office did not locate                      Clearance
                                                                              Determine
                           property.
                           During routine annual inventory laptop was          Unable to
    42        12/18/2002                                                                     Clearance
                           noted as missing.                                   Determine
                                                                               Unable to
              1/17/2003    Laptop discovered missing during inventory.                       Clearance
                                                                               Determine
    43
                                                                               Unable to
              1/17/2003    Laptop discovered missing during inventory.                       Clearance
                                                                               Determine
                           Laptop missing after offsite Task Force Office      Unable to
    44         3/3/2003                                                                      Clearance
                           was burglarized.                                    Determine
                           Laptop disappeared, possibly collected with         Unable to
    45        1/28/2003                                                                      Clearance
                           garbage.                                            Determine
                                                                                Did not
                           Special Agent left laptop in official government
                                                                                contain
                           vehicle while in physical fitness center and it                    Letter of
    46        4/16/2003                                                       sensitive or
                           was stolen out of the vehicle. No sensitive or                    Counseling
                                                                               classified
                           classified information.
                                                                              information
                           Laptop inadvertently left off previous reports      Unable to
    47        5/12/2003                                                                      Clearance
                           concerning missing laptops.                         Determine
                           Stolen from a secured work space - FDLE Task         Did not
                           Force while Special Agent on a 45 day TDY.           contain
                                                                                              Letter of
    48        4/10/2003    Per DEA-6 laptop did not contain any classified    sensitive or
                                                                                             Counseling
                           or sensitive data. Item discovered stolen during    classified
                           a routine inventory.                               information
                           The wrong DEA tracking number was placed on
                           the laptop, a DEA FORM 29 was filed, they          Unable to
    49        11/15/2002                                                                     Clearance
                           noted the error and documented the situation.      Determine
                           The laptop was never missing.
                           Item was erroneously reported as missing, but
                                                                              Unable to
    50         2/4/2003    was found to be appropriately accounted for                       Clearance
                                                                              Determine
                           (returned to DOJ CATS).

                                                 61
            DEA
          Form 29
 Item      Report                                                         Contents      Action
Number      Date                   Description of Incident                of Laptop     Taken
                      Telecommunications Specialist left laptop in his    Contained
                                                                                        Letter of
  51     5/11/2003    garage and it was stolen. According to him it        sensitive
                                                                                       Reprimand
                      contained sensitive case information.              information
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
  52     6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
         6/24/2003                                                                     Clearance
                      inventory in 2002.                                  Determine
                      Laptops discovered missing after physical           Unable to
  53     10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine
                      Laptops discovered missing after physical           Unable to
         10/30/2003                                                                    Clearance
                      inventory in 2003.                                  Determine


                                           62
                 DEA
               Form 29
  Item          Report                                                         Contents     Action
 Number          Date                    Description of Incident               of Laptop    Taken
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
    53                     inventory in 2003.                                  Determine
(continued)                Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Laptops discovered missing after physical           Unable to
              10/30/2003                                                                   Clearance
                           inventory in 2003.                                  Determine
                           Special Agent transferred from duty station and
                           left laptop for use by other Special Agents.        Unable to    Letter of
    54        11/3/2003
                           During the annual inventory the laptop could not    Determine   Counseling
                           be accounted for.
                           Laptop transferred between multiple employees.
                                                                               Unable to
    55        11/4/2003    However, all 3 employees are retired and                        Clearance
                                                                               Determine
                           supporting documents believe to be destroyed.
                           Could not locate during routine inventory-          Unable to
    56        11/1/2003                                                                    Clearance
                           probably disposed of in 1998.                       Determine
                           Could not locate during routine inventory-sent to
                           Dallas warehouse for disposal-no paperwork          Unable to
    57        10/23/2003                                                                   Clearance
                           found-laptop purchased in 1992 so only had          Determine
                           scrap value.
                           Could not locate during routine inventory -
                                                                               Unable to
    58        12/10/2003   probably lost during several exchanges between                  Clearance
                                                                               Determine
                           several Intelligence Division personnel.
                           Investigation indicates the laptop was most
                                                                               Unable to
    59        10/8/2003    probably loaned to the Mexico SIU. Unable to                    Clearance
                                                                               Determine
                           determine responsibility.
                           Could not locate during inventory in 10/2003-       Unable to
    60        10/17/2003                                                                   Clearance
                           last shown on inventory in July 2001.               Determine
                                                                               Unable to
    61        2/11/2004    Stolen from official government vehicle.                        Clearance
                                                                               Determine


                                                63
            DEA
          Form 29
 Item      Report                                                        Contents      Action
Number      Date                  Description of Incident                of Laptop     Taken
                                                                         Unable to
         11/21/2003   Could not locate during inventory in 12/2003.                  Clearance
                                                                         Determine
                                                                         Unable to
         11/21/2003   Could not locate during inventory in 12/2003.                  Clearance
                                                                         Determine
  62
                                                                         Unable to
         11/21/2003   Could not locate during inventory in 12/2003.                  Clearance
                                                                         Determine
                                                                         Unable to
         11/21/2003   Could not locate during inventory in 12/2003.                  Clearance
                                                                         Determine
                      Stolen from secure hotel area, investigation
                      indicates a hotel employee was involved. Office    Unable to
  63     10/31/2003                                                                  Clearance
                      of Congressional and Public Affairs was using      Determine
                      the DEA computer for a presentation.
                                                                                       Letter of
                                                                                     Reprimand
                      Laptop left unattended at reception and was        Unable to
  64     2/25/2004                                                                   - Financial
                      stolen.                                            Determine
                                                                                      Liability -
                                                                                       $699.77
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
  65     10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.
                      Laptop discovered lost during inventory 9/15/03.
                                                                         Unable to
         10/27/2003   Later discovered laptops were cannibalized for                 Clearance
                                                                         Determine
                      components by former contract employee.



                                           64
                 DEA
               Form 29
  Item          Report                                                          Contents      Action
 Number          Date                   Description of Incident                 of Laptop     Taken
                           Laptop discovered lost during inventory 9/15/03.
                                                                                Unable to
              10/27/2003   Later discovered laptops were cannibalized for                   Clearance
                                                                                Determine
                           components by former contract employee.
                           Laptop discovered lost during inventory 9/15/03.
                                                                                Unable to
              10/27/2003   Later discovered laptops were cannibalized for                   Clearance
                                                                                Determine
                           components by former contract employee.
                           Laptop discovered lost during inventory 9/15/03.
                                                                                Unable to
              10/27/2003   Later discovered laptops were cannibalized for                   Clearance
                                                                                Determine
                           components by former contract employee.
                           Laptop discovered lost during inventory 9/15/03.
                                                                                Unable to
              10/27/2003   Later discovered laptops were cannibalized for                   Clearance
                                                                                Determine
    65                     components by former contract employee.
(continued)                Laptop discovered lost during inventory 9/15/03.
                                                                                Unable to
              10/27/2003   Later discovered laptops were cannibalized for                   Clearance
                                                                                Determine
                           components by former contract employee.
                           During the annual inventory FY2003 the laptop
                           computer was unaccounted for. During the
                                                                                Unable to
    66        4/22/2004    investigation it was noted that the previous                     Clearance
                                                                                Determine
                           office in Pakistan was closed and the laptop
                           was stored with other items in another location.
                           Could not locate during inventory in 2003 -          Unable to
    67        3/31/2004                                                                     Clearance
                           Mexico City.                                         Determine
                                                                                Unable to
    68        10/12/2002   Could not locate on inventory in Aug. 2001.                      Clearance
                                                                                Determine
                           Could not locate on inventory in Nov. 2003.
                                                                                Unable to
    69        4/15/2004    Believed to have been sent to Mexico City for                    Clearance
                                                                                Determine
                           repairs and stolen from there.
                           Laptop stolen from locked hotel room while           Unable to
    70        4/13/2004                                                                     Clearance
                           agent was on vacation in Florida.                    Determine
                           In 2002 laptops transferred to LA Field Division
                           for repair. Determined too costly to repair so       Unable to
              11/18/2003                                                                    Clearance
                           both placed in surplus status. Could not locate      Determine
                           in inventory in Oct. 2003.
    71
                           In 2002 laptops transferred to LA Field Division
                           for repair. Determined too costly to repair so       Unable to
              11/18/2003                                                                    Clearance
                           both placed in surplus status. Could not locate      Determine
                           in inventory in Oct. 2003.
                           Agent thinks laptop was stolen from official                       Letter of
                           government vehicle while agent lunched at local                  Reprimand
                                                                                Unable to
    72         6/4/2004    restaurant on 4/19/04. However, agent also                       - Financial
                                                                                Determine
                           utilized a full service car wash on 4/16/04. Agent                Liability -
                           didn't discover until 4/21/04.                                   $1,990.58
                           Laptop stolen from checked luggage on return         Unable to
    73         6/3/2004                                                                     Clearance
                           trip from Botswana.                                  Determine
                           Laptop noted as missing during the annual
                           inventory, investigation indicates the computer      Unable to
    74        6/18/2004                                                                     Clearance
                           was returned to HQ but no documentation was          Determine
                           found and computer could not be located.


                                                 65
            DEA
          Form 29
 Item      Report                                                            Contents        Action
Number      Date                  Description of Incident                    of Laptop       Taken
                                                                              Did not
                      The investigation shows that the exact date the
                                                                              contain
                      laptop was missing is unknown. Used the DEA                           Letter of
  75     6/25/2004                                                          sensitive or
                      FORM 29 date. No sensitive or classified                             Counseling
                                                                             classified
                      information on laptop.
                                                                            information
                      Special Agent transferred from one duty station
                      to another and apparently left laptop at previous
                      duty station since it belonged to that group.         Unable to
  76     6/21/2004                                                                         Clearance
                      Later contacted regarding location of laptop, it      Determine
                      could not be found. Laptop was ultimately
                      located.
                      Stolen from Dominican National Directorate,
                                                                            Unable to
  77     7/16/2004    Command and Control Center a joint facility in                       Clearance
                                                                            Determine
                      Santo Domingo.
                      Stolen from official government vehicle parked
                                                                            Unable to      Suspensio
  78      9/9/2004    at restaurant while Special Agent on TDY -
                                                                            Determine      n - 3 days
                      NCIC 29503.
                      Laptop used by Foreign Operations Group and
                                                                            Unable to
  79      7/2/2004    not returned. Unknown Last DEA Agent to use                          Clearance
                                                                            Determine
                      laptop and no records to locate.
                      Special Agent left laptop in taxi cab trunk and it    Unable to       Letter of
  80     10/6/2004
                      was stolen.                                           Determine      Counseling
                                                                            Unable to
  81     10/26/2004   Stolen from hotel room.                                              Clearance
                                                                            Determine
                      Laptop reported missing but was found behind
                                                                            Unable to       Letter of
  82     10/7/2004    metal shelving unit in equipment storage area
                                                                            Determine      Counseling
                      on 7/28/05.
                      Laptop discovered missing during inventory in         Unable to
  83     11/2/2004                                                                         Clearance
                      Oct 2004. Laptop subsequently found.                  Determine
                                                                                           Suspensio
                                                                                           n - 2 days -
                                                                            Unable to
  84     7/12/2004    Laptop stolen from official government vehicle                        Financial
                                                                            Determine
                                                                                            Liability -
                                                                                             $416.47
                      Laptop discovered lost during inventory in Nov        Unable to
  85     11/16/2004                                                                        Clearance
                      2004.                                                 Determine
         6/30/2005                                                          Unable to
  86                  Stolen from official vehicle                                         Clearance
                                                                            Determine
                      Laptop left in locked official government vehicle,
                      vehicle broken into and laptop stolen, nothing in     Unable to       Letter of
  87     6/30/2005
                      file indicated the classification of information on   Determine      Reprimand
                      the laptop.
                      Support staff member believes he left in official
                                                                            Unable to       Letter of
  88      7/5/2005    government vehicle but search came up with
                                                                            Determine      Reprimand
                      nothing.
                                                                            Unable to
  89     8/20/2005    Could not locate during 2004 inventory.                              Clearance
                                                                            Determine


                                            66
            DEA
          Form 29
 Item      Report                                                        Contents     Action
Number      Date                  Description of Incident                of Laptop    Taken
                      Laptop stolen from official government vehicle
                                                                         Unable to    Letter of
  90     11/16/2005   at 3:00 a.m. while agent was on duty but away
                                                                         Determine   Counseling
                      from vehicle.
                                                                         Unable to
  91     12/15/2005   Laptop stolen from wire room cubicle                           Clearance
                                                                         Determine
                      Laptop discovered missing during inventory.        Unable to
          7/5/2005                                                                   Clearance
                      Laptop has been destroyed or surplused.            Determine
  92
                      Laptop discovered missing during inventory.        Unable to
          7/5/2005                                                                   Clearance
                      Laptop has been destroyed or surplused.            Determine
                      Laptops discovered missing during inventory in
                      July 2005. Three laptops subsequently found.
                                                                         Unable to
         10/10/2005   Laptops with DEA #s 317287; 317284; and                        Clearance
                                                                         Determine
                      343308 were still missing as of 3/13/06 (date of
                      last DEA-29).
                      Laptops discovered missing during inventory in
                      July 2005. Three laptops subsequently found.
                                                                         Unable to
         10/10/2005   Laptops with DEA #s 317287; 317284; and                        Clearance
                                                                         Determine
                      343308 were still missing as of 3/13/06 (date of
                      last DEA-29).
                      Laptops discovered missing during inventory in
                      July 2005. Three laptops subsequently found.
                                                                         Unable to
         10/10/2005   Laptops with DEA #s 317287; 317284; and                        Clearance
                                                                         Determine
                      343308 were still missing as of 3/13/06 (date of
                      last DEA-29).
  93
                      Laptops discovered missing during inventory in
                      July 2005. Three laptops subsequently found.
                                                                         Unable to
         10/10/2005   Laptops with DEA #s 317287; 317284; and                        Clearance
                                                                         Determine
                      343308 were still missing as of 3/13/06 (date of
                      last DEA-29).
                      Laptops discovered missing during inventory in
                      July 2005. Three laptops subsequently found.
                                                                         Unable to
         10/10/2005   Laptops with DEA #s 317287; 317284; and                        Clearance
                                                                         Determine
                      343308 were still missing as of 3/13/06 (date of
                      last DEA-29).
                      Laptops discovered missing during inventory in
                      July 2005. Three laptops subsequently found.
                                                                         Unable to
         10/10/2005   Laptops with DEA #s 317287; 317284; and                        Clearance
                                                                         Determine
                      343308 were still missing as of 3/13/06 (date of
                      last DEA-29).
                      Special Agent inadvertently left bag outside       Unable to    Letter of
  94      3/9/2006
                      vehicle when loading luggage after a flight.       Determine   Counseling
                      Special Agent loaned laptop to Aruban Police
                      Dept. without obtaining a receipt in 2002.         Unable to    Letter of
  95     4/12/2006
                      Believe Aruban Police destroyed when updating      Determine   Counseling
                      T-III Room.




                                           67
            DEA
          Form 29
 Item      Report                                                        Contents      Action
Number      Date                    Description of Incident              of Laptop     Taken
                      Special Agent lost laptop approx. Aug 04 but not
                      reported. Found missing during inventories in                    Letter of
                      November 2004 and April 2005. Agent told to                    Reprimand
                                                                         Unable to
  96     4/21/2005    look for it after 2004 inventory but the then                  - Financial
                                                                         Determine
                      supervisor retired and nothing was done until                   Liability -
                      after 2005 inventory. Agent failed to file DEA-                  $340.36
                      29.
                      Laptop was used by an intelligence analyst, he
                      turned it in when he transferred, when the unit
                                                                         Unable to
  97      8/5/2005    got a new property custodian and she                           Clearance
                                                                         Determine
                      conducted the inventory the laptop was noted
                      as unaccounted for.
                      Laptop discovered missing during inventory in      Unable to
  98     7/14/2006                                                                   Clearance
                      June 2005.                                         Determine
                      TFO signed out laptop on March 14, 2005 but        Unable to
  99     8/17/2006                                                                   Clearance
                      has not idea where it is now.                      Determine
                      Laptop was 15 years old and no present Paris       Unable to
 100      8/7/2006                                                                   Clearance
                      CO employees were ever assigned it.                Determine
                      Loaned to Aruban Police in 2002. Aruban            Unable to
         7/14/2006                                                                   Clearance
                      Police think they were returned in 2005.           Determine
 101
                      Loaned to Aruban Police in 2002. Aruban            Unable to
         7/14/2006                                                                   Clearance
                      Police think they were returned in 2005.           Determine
                      May 2004 was the last time the Special Agent
                      recalls having the laptop. It was determined to    Unable to
 102     7/20/2006                                                                   Clearance
                      be old and outdated and obsolete left at           Determine
                      previous field office.
                      Laptop discovered missing during inventory in      Unable to
 103      8/4/2006                                                                   Clearance
                      July 2006.                                         Determine
                                                                         Unable to
 104      9/1/2006    Laptop discovered missing during inventory.                    Clearance
                                                                         Determine
                                                                         Unable to
         7/24/2006    Laptop discovered missing during inventory.                    Clearance
                                                                         Determine
 105
                                                                         Unable to
         7/24/2006    Laptop discovered missing during inventory.                    Clearance
                                                                         Determine
                                                                                       Letter of
                                                                                     Reprimand
                      Laptop stolen from privately owned vehicle         Unable to
 106     11/27/2006                                                                  - Financial
                      while on leave in Phoenix.                         Determine
                                                                                      Liability -
                                                                                     $1,800.63
                                                                         Unable to
 107     11/29/2006   Discovered thru routine inventory in Nov. 06.                  Clearance
                                                                         Determine
                      Agent stated surplused in May or June 2005.
                                                                         Unable to
 108     12/1/2006    Said DEA-29 was done but paperwork not                         Clearance
                                                                         Determine
                      found.
                      Inventory July 2005 shows laptop unaccounted
                      for. DEA FORM 29 filed in February 2007.           Unable to    Letter of
 109      2/6/2007
                      Special Agent to whom laptop assigned states it    Determine   Counseling
                      was returned to (IT) for repair long ago.

                                           68
                DEA
              Form 29
  Item         Report                                                  Contents     Action
 Number         Date                  Description of Incident          of Laptop    Taken
                         Laptop computer apparently transferred to
                         multiple locations and an employee who was    Unable to
   110      11/14/2006                                                             Clearance
                         fired for other issues was involved with this Determine
                         laptop. Result laptop can't be located.
Source: OIG analysis of the DEA Board of Professional Conduct case files




                                            69
This page intentionally left blank.




                70
                                                                        APPENDIX V


           ANALYSIS OF LOST AND STOLEN DEA WEAPONS


                                       Days
                                    Between
                                     Incident         Timely      Referred to
                                     and DEA        Submittal of DEA Office of
                                     Form 29         DEA Form     Professional
Number          Loss Type           Submittal           29       Responsibility
   1         Lost                       410             NO            NO
   2         Lost                       4207            NO            NO
   3         Stolen                      96             NO            NO
   4         Lost                         0             YES           NO
   5         Stolen                       6             NO            YES
   6         Stolen                      13             NO            YES
   7         Stolen                       1             YES           YES
   8         Stolen                      13             NO            YES
   9         Stolen                       1             YES           YES
  10         Stolen                      26             NO            NO
  11         Stolen                      78             NO            YES
  12         Stolen                      25             NO            YES
  13         Lost                        15             NO            YES
  14         Stolen                       1             YES           YES
  15         Stolen                       3             YES           YES
  16         Stolen                       2             YES          UTD41
  17         Stolen                       2             YES           UTD
  18         Stolen                       2             YES           YES
  19         Stolen                       3             YES           YES
  20         Lost                         5             NO            YES
  21         Lost                        20             NO            YES
  22         Stolen                      20             NO            YES
  23         Stolen                       8             NO            YES
  24         Lost                         8             NO            NO
  25         Lost                         1             YES           NO
  26         Stolen                       6             NO            NO
  27         Stolen                       0             YES           NO
  28         Stolen                      21             NO            NO
  29         Stolen                      34             NO            YES

      41
          UTD = Unable To Determine. The DEA Board of Professional Conduct file did not
indicate whether the case was referred to the Office of Professional Responsibility.

                                          71
                           Days
                        Between
                         Incident     Timely      Referred to
                         and DEA    Submittal of DEA Office of
                         Form 29     DEA Form     Professional
Number      Loss Type   Submittal       29       Responsibility
  30     Stolen             1           YES           YES
  31     Lost               6           NO            YES
  32     Lost               7           NO            YES
  33     Lost              15           NO            NO
  34     Stolen             5           NO            YES
  35     Lost               0           YES           YES
  36     Stolen             3           YES           YES
  37     Stolen             3           YES           YES
  38     Stolen            31           NO            YES
  39     Stolen            11           NO            YES
  40     Stolen             0           YES           UTD
  41     Stolen             0           YES           UTD
  42     Stolen            20           NO            UTD
  43     Stolen             0           YES           UTD
  44     Stolen            31           NO            UTD
  45     Stolen            31           NO            UTD
  46     Stolen            31           NO            UTD
  47     Stolen             3           YES           UTD
  48     Stolen             3           YES           UTD
  49     Stolen             2           YES           YES
  50     Lost               2           YES           YES
  51     Stolen             8           NO            NO
  52     Stolen             8           NO            NO
  53     Lost               4           NO            YES
  54     Lost               3           YES           NO
  55     Stolen            24           NO            UTD
  56     Stolen             2           YES           YES
  57     Stolen            37           NO            YES
  58     Stolen            37           NO            YES
  59     Lost              36           NO            YES
  60     Stolen             3           YES           UTD
  61     Stolen             2           YES           UTD
  62     Stolen             2           YES           UTD
  63     Stolen            20           NO            UTD
  64     Stolen             2           YES           NO

                            72
                                         Days
                                      Between
                                       Incident          Timely      Referred to
                                       and DEA         Submittal of DEA Office of
                                       Form 29          DEA Form     Professional
 Number          Loss Type            Submittal            29       Responsibility
   65         Stolen                        1              YES           UTD
   66         Stolen                        0              YES           YES
   67         Stolen                        1              YES           YES
   68         Stolen                        4              NO            YES
   69         Stolen                        2              YES           YES
   70         Stolen                        2              YES           YES
   71         Stolen                        1              YES           YES
   72         Stolen                        1              YES           YES
   73         Stolen                        2              YES           YES
   74         Lost                         88              NO            NO
   75         Lost                         14              NO            YES
   76         Stolen                        1              YES           YES
   77         Stolen                        1              YES           YES
   78         Stolen                        3              YES           UTD
   79         Stolen                        2              YES           YES
   80         Stolen                        1              YES           NO
   81         Stolen                        6              NO            YES
   82         Stolen                        1              YES           NO
   83         Stolen                        0              YES           YES
   84         Stolen                        0              YES           YES
   85         Stolen                        2              YES           YES
   86         Stolen                       27              NO            YES
   87         Lost                          0              YES           YES
   88         Lost                          1              YES           YES
   89         Lost                          0              YES           YES
   90         Stolen                        5              NO            UTD
   91         Lost                         0               YES           YES
Source: OIG analysis of the DEA Board of Professional Conduct case files




                                            73
This page intentionally left blank.




                74
                                                                       APPENDIX VI


         ANALYSIS OF LOST AND STOLEN DEA LAPTOPS


                                                 Timely
                  Days Between Incident        Submittal of
         Loss       and DEA Form 29               DEA          Referred to DEA Office of
Number   Type           Submittal               Form 29       Professional Responsibility
  1       Lost            UTD                     UTD                    UTD
  2       Lost            UTD                     UTD                    UTD
  3       Lost            UTD                     UTD                    UTD
  4       Lost            UTD                     UTD                    UTD
  5       Lost            UTD                     UTD                    YES
  6       Lost            UTD                     UTD                    UTD
  7       Lost             0                      YES                    UTD
  8       Lost            UTD                     UTD                    UTD
  9       Lost            UTD                     UTD                    UTD
  10      Lost            UTD                     UTD                    UTD
  11      Lost            UTD                     UTD                    UTD
  12      Lost            UTD                     UTD                    UTD
  13      Lost            UTD                     UTD                    UTD
  14      Lost            UTD                     UTD                    UTD
  15      Lost            UTD                     UTD                    UTD
  16      Lost            UTD                     UTD                    UTD
  17      Lost            UTD                     UTD                    UTD
  18      Lost            UTD                     UTD                    UTD
  19      Lost            UTD                     UTD                    UTD
  20      Lost            UTD                     UTD                    UTD
  21      Lost            UTD                     UTD                    UTD
  22      Lost            UTD                     UTD                    UTD
  23      Lost            UTD                     UTD                    UTD
  24      Lost            1376                     NO                    UTD
  25      Lost             3                      YES                    UTD
  26      Lost            UTD                     UTD                    UTD
  27      Lost            UTD                     UTD                    UTD
  28      Lost            UTD                     UTD                    UTD
  29      Lost            UTD                     UTD                    UTD
  30      Lost            UTD                     UTD                    UTD
  31      Lost            UTD                     UTD                    UTD
  32      Lost            UTD                     UTD                    UTD
  33      Lost            UTD                     UTD                    UTD
  34      Lost            UTD                     UTD                    UTD
  35      Lost            UTD                     UTD                    UTD
  36      Lost            734                      NO                    UTD
  37     Stolen            6                       NO                    UTD
  38      Lost            UTD                     UTD                    UTD

                                          75
                                                 Timely
                  Days Between Incident        Submittal of
         Loss       and DEA Form 29               DEA          Referred to DEA Office of
Number   Type           Submittal               Form 29       Professional Responsibility
  39     Stolen            6                       NO                    UTD
  40      Lost            UTD                     UTD                    UTD
  41      Lost            UTD                     UTD                    UTD
  42      Lost            UTD                     UTD                    UTD
  43      Lost            UTD                     UTD                    UTD
  44      Lost            UTD                     UTD                    UTD
  45      Lost            UTD                     UTD                    UTD
  46      Lost            UTD                     UTD                    UTD
  47      Lost            UTD                     UTD                    UTD
  48      Lost            UTD                     UTD                    UTD
  49      Lost            UTD                     UTD                    UTD
  50      Lost            UTD                     UTD                    UTD
  51      Lost            UTD                     UTD                    UTD
  52      Lost            UTD                     UTD                    UTD
  53      Lost            UTD                     UTD                    UTD
  54      Lost            UTD                     UTD                    UTD
  55      Lost            UTD                     UTD                    UTD
  56     Stolen            30                      NO                    UTD
  57      Lost            UTD                     UTD                    UTD
  58      Lost            UTD                     UTD                    UTD
  59      Lost            UTD                     UTD                    UTD
  60      Lost            UTD                     UTD                    UTD
  61      Lost            UTD                     UTD                    UTD
  62      Lost            UTD                     UTD                    UTD
  63      Lost            UTD                     UTD                    UTD
  64      Lost            UTD                     UTD                    UTD
  65      Lost            UTD                     UTD                    UTD
  66      Lost             53                      NO                    UTD
  67      Lost            UTD                     UTD                    UTD
  68      Lost            UTD                     UTD                    UTD
  69      Lost            UTD                     UTD                    UTD
  70      Lost            UTD                     UTD                    UTD
  71      Lost            UTD                     UTD                    UTD
  72      Lost            UTD                     UTD                    UTD
  73      Lost            UTD                     UTD                    UTD
  74      Lost            UTD                     UTD                    UTD
  75      Lost            UTD                     UTD                    UTD
  76      Lost             2                      YES                    UTD
  77      Lost            UTD                     UTD                    UTD
  78     Stolen           1190                     NO                    UTD
  79      Lost            1727                     NO                    UTD


                                          76
                                                 Timely
                  Days Between Incident        Submittal of
         Loss       and DEA Form 29               DEA          Referred to DEA Office of
Number   Type           Submittal               Form 29       Professional Responsibility
   80     Lost            UTD                     UTD                    UTD
   81     Lost            UTD                     UTD                    UTD
   82     Lost            UTD                     UTD                    UTD
   83     Lost            UTD                     UTD                    UTD
   84     Lost            UTD                     UTD                    UTD
   85     Lost            UTD                     UTD                    UTD
   86     Lost            UTD                     UTD                    UTD
   87     Lost            UTD                     UTD                    UTD
   88     Lost            UTD                     UTD                    UTD
   89     Lost            UTD                     UTD                    UTD
   90     Lost            UTD                     UTD                    UTD
   91     Lost            UTD                     UTD                    UTD
   92     Lost            UTD                     UTD                    UTD
   93     Lost            UTD                     UTD                    UTD
   94     Lost            UTD                     UTD                    UTD
   95     Lost            UTD                     UTD                    UTD
   96     Lost            UTD                     UTD                    UTD
   97     Lost            UTD                     UTD                    UTD
   98     Lost            UTD                     UTD                    UTD
   99     Lost            UTD                     UTD                    UTD
  100     Lost            UTD                     UTD                    UTD
  101     Lost            UTD                     UTD                    UTD
  102     Lost            UTD                     UTD                    UTD
  103    Stolen            0                      YES                    UTD
  104     Lost             4                       NO                    UTD
  105    Stolen            50                      NO                    UTD
  106     Lost            UTD                     UTD                    UTD
  107    Stolen           UTD                     UTD                    YES
  108    Stolen            3                      YES                    UTD
  109     Lost            UTD                     UTD                    UTD
  110     Lost            UTD                     UTD                    UTD
  111     Lost            UTD                     UTD                    UTD
  112     Lost            UTD                     UTD                    UTD
  113     Lost            UTD                     UTD                    UTD
  114     Lost            UTD                     UTD                    UTD
  115     Lost            UTD                     UTD                    UTD
  116     Lost            UTD                     UTD                    UTD
  117     Lost            UTD                     UTD                    UTD
  118     Lost            UTD                     UTD                    UTD
  119     Lost            UTD                     UTD                    UTD
  120     Lost            UTD                     UTD                    UTD


                                          77
                                                 Timely
                  Days Between Incident        Submittal of
         Loss       and DEA Form 29               DEA          Referred to DEA Office of
Number   Type           Submittal               Form 29       Professional Responsibility
  121     Lost            UTD                     UTD                    UTD
  122     Lost            UTD                     UTD                    UTD
  123     Lost            UTD                     UTD                    UTD
  124     Lost            UTD                     UTD                    UTD
  125     Lost            UTD                     UTD                    UTD
  126     Lost            UTD                     UTD                    UTD
  127     Lost            UTD                     UTD                    UTD
  128     Lost            UTD                     UTD                    UTD
  129     Lost            UTD                     UTD                    UTD
  130     Lost            UTD                     UTD                    UTD
  131     Lost            UTD                     UTD                    UTD
  132     Lost            UTD                     UTD                    UTD
  133     Lost            UTD                     UTD                    UTD
  134     Lost            UTD                     UTD                    UTD
  135     Lost            UTD                     UTD                    UTD
  136     Lost            UTD                     UTD                    UTD
  137     Lost            UTD                     UTD                    UTD
  138     Lost            UTD                     UTD                    UTD
  139     Lost            UTD                     UTD                    UTD
  140     Lost            UTD                     UTD                    UTD
  141     Lost            UTD                     UTD                    UTD
  142     Lost            UTD                     UTD                    UTD
  143     Lost            UTD                     UTD                    UTD
  144     Lost            UTD                     UTD                    UTD
  145     Lost            UTD                     UTD                    UTD
  146     Lost            UTD                     UTD                    UTD
  147     Lost            UTD                     UTD                    UTD
  148     Lost            UTD                     UTD                    UTD
  149     Lost            UTD                     UTD                    UTD
  150    Stolen            30                      NO                    UTD
  151     Lost            UTD                     UTD                    UTD
  152     Lost            UTD                     UTD                    UTD
  153     Lost            UTD                     UTD                    UTD
  154     Lost            UTD                     UTD                    UTD
  155    Stolen            15                      NO                    UTD
  156    Stolen            8                       NO                    UTD
  157     Lost             42                      NO                    UTD
  158     Lost             42                      NO                    UTD
  159     Lost             42                      NO                    UTD
  160     Lost             42                      NO                    UTD
  161     Lost             42                      NO                    UTD


                                          78
                                                 Timely
                  Days Between Incident        Submittal of
         Loss       and DEA Form 29               DEA          Referred to DEA Office of
Number   Type           Submittal               Form 29       Professional Responsibility
  162     Lost             42                      NO                    UTD
  163     Lost             42                      NO                    UTD
  164     Lost             42                      NO                    UTD
  165     Lost             42                      NO                    UTD
  166     Lost             42                      NO                    UTD
  167     Lost             42                      NO                    UTD
  168     Lost             42                      NO                    UTD
  169     Lost             42                      NO                    UTD
  170     Lost             42                      NO                    UTD
  171     Lost             42                      NO                    UTD
  172     Lost            UTD                     UTD                    UTD
  173     Lost            UTD                     UTD                    UTD
  174     Lost            UTD                     UTD                    UTD
  175    Stolen           UTD                     UTD                    UTD
  176    Stolen            10                      NO                    UTD
  177     Lost            UTD                     UTD                    UTD
  178     Lost            UTD                     UTD                    UTD
  179    Stolen            46                      NO                    UTD
  180    Stolen            6                       NO                    UTD
  181     Lost            UTD                     UTD                    UTD
  182     Lost            UTD                     UTD                    UTD
  183    Stolen            25                      NO                    UTD
  184    Stolen            34                      NO                    UTD
  185     Lost            UTD                     UTD                    UTD
  186     Lost             5                       NO                    UTD
  187    Stolen            19                      NO                    UTD
  188    Stolen            9                       NO                    UTD
  189     Lost            UTD                     UTD                    UTD
  190    Stolen           116                      NO                    UTD
  191    Stolen            76                      NO                    UTD
  192     Lost             7                       NO                    UTD
  193     Lost            UTD                     UTD                    UTD
  194    Stolen            29                      NO                    UTD
  195    Stolen           UTD                     UTD                    UTD
  196     Lost            UTD                     UTD                    UTD
  197     Lost            UTD                     UTD                    UTD
  198     Lost             75                      NO                    UTD
  199     Lost             75                      NO                    UTD
  200     Lost             75                      NO                    UTD
  201     Lost             75                      NO                    UTD
  202     Lost             75                      NO                    UTD


                                          79
                                                   Timely
                     Days Between Incident     Submittal of
          Loss         and DEA Form 29              DEA          Referred to DEA Office of
 Number   Type             Submittal              Form 29       Professional Responsibility
   203     Lost                75                    NO                    UTD
   204     Lost                2                    YES                    UTD
   205     Lost              UTD                    UTD                    UTD
   206     Lost              UTD                    UTD                    UTD
   207     Lost              UTD                    UTD                    UTD
   208     Lost              UTD                    UTD                    UTD
   209     Lost              UTD                    UTD                    UTD
   210     Lost              UTD                    UTD                    UTD
   211     Lost              UTD                    UTD                    UTD
   212     Lost              UTD                    UTD                    UTD
   213     Lost              UTD                    UTD                    UTD
   214     Lost              UTD                    UTD                    UTD
   215     Lost              UTD                    UTD                    UTD
   216     Lost              UTD                    UTD                    UTD
   217     Lost              UTD                    UTD                    UTD
   218    Stolen               3                    YES                    UTD
   219     Lost              UTD                    UTD                    UTD
   220     Lost              UTD                    UTD                    UTD
   221     Lost              UTD                    UTD                    UTD
   222     Lost               495                    NO                    UTD
   223    Stolen             UTD                    UTD                    UTD
   224     Lost              UTD                    UTD                    UTD
   225     Lost                75                    NO                    UTD
   226     Lost              UTD                    UTD                    UTD
   227     Lost                0                    YES                    UTD
   228     Lost                0                    YES                    UTD
   229     Lost               236                    NO                    UTD
   230     Lost                36                    NO                    UTD
   231     Lost              UTD                    UTD                    UTD
Source: OIG analysis of the DEA Board of Professional Conduct case files




                                             80
                                                         APPENDIX VII


LOST AND STOLEN DEA WEAPONS NOT FOUND
         IN THE NCIC DATABASE

   Number         Make               Model           Caliber
      1     Smith & Wesson     10                38
      2     Sig Sauer          P-225             9mm
      3     Glock              22                40
      4     Glock              19                9mm
      5     Sig Sauer          P-229             40
      6     Sig Sauer          P-220             45
      7     Colt               M-4 Carbine       5.56mm
      8     Glock              22                40
      9     Glock              23                40
     10     Glock              27                40
     11     Glock              22                40
     12     Sig Sauer          P-220             45
     13     Glock              27                40
     14     Sig Sauer          P-229             40
     15     Glock              26                9mm
     16     Remington          870               12
     17     Glock              19                9mm
     18     Sig Sauer          P-229             40
 Source: OIG analysis of NCIC database queries




                               81
This page intentionally left blank.




                82
                                                                       APPENDIX VIII


  DEA-OWNED WEAPONS AND LAPTOP COMPUTERS TESTED

 Location                      Weapons                                 Laptops
                        Number             Percent    Number                       Percent
                        Tested Universe    Tested     Tested          Universe     Tested
 DEA headquarters         388     388       100%       2,189           2,189        100%
 Firearms Training Unit  3,322   3,322      100%        554             554         100%
 Chicago                  101     367        28%         30             108          28%
 Denver                    41     151        27%         19              69          28%
 Houston                   78     293        27%         56             205          27%
 Los Angeles              171     628        27%         59             217          27%
 Miami                    102     386        26%         39             141          28%
 New York                 128     472        27%         61             224          27%
        TOTAL42          4,331   6,007       72%       3,007           3,707         81%
Source: OIG summary of DEA weapons and laptop computers tested




        42
          This table summarizes the percentage of weapons and laptops tested in
 comparison to the universes of weapons and laptops at the locations that the OIG visited.
 The DEA’s overall total universes were 14,449 DEA-owned weapons and 7,381 DEA-owned
 laptops.


                                            83
This page intentionally left blank.




                84
                              APPENDIX IX


          DEA FORM 12
RECEIPT FOR CASH OR OTHER ITEMS




              85
This page intentionally left blank.




                86
                          APPENDIX X


      DEA FORM 17
FIREARMS CONTROL RECORD




          87
This page intentionally left blank.




                88
                                      APPENDIX XI


                  DEA FORM 29
PERSONAL PROPERTY NEGLIGENCE/LIABILITY ASSESSMENT




                      89
This page intentionally left blank.




                90
                            APPENDIX XII


      DEA FORM 171a
EMPLOYEE CLEARANCE RECORD




           91
This page intentionally left blank.




                92
                             APPENDIX XIII

         DEA FORM 609
REQUEST FOR AUTHORITY TO CARRY
 A PERSONALLY OWNED FIREARM




              93
This page intentionally left blank.




                94
                                                                                 APPENDIX XIV

        DRUG ENFORCEMENT ADMINISTRATION RESPONSE


                                                        U. S. Department of Justice
                                                                    Drug Enforcement Administration



www.dea.gov                                   Washington, D.C. 20537




SUBJECT:       DEA’s Response to the OIG’s Draft Report: The Drug Enforcement Administration’s
               Control over Weapons and Laptop Computers Follow-up Audit

   The Drug Enforcement Administration (DEA) has reviewed the Department of Justice (DOJ),
Office of the Inspector General’s (OIG) draft audit report, entitled: The Drug Enforcement
Administration’s Control over Weapons and Laptop Computers Follow-up Audit. DEA
acknowledges OIG for its efforts in conducting a review of DEA’s control over weapons and laptops.
As a result of this review, DEA concurs with six of the seven recommendations promulgated in the
draft report and will take the necessary steps to implement the recommendations.

    DEA appreciates that OIG noted the DEA made significant improvement in its rate of loss for
laptop computers, decreasing by more than 50 percent, compared to OIG’s 2002 audit of DEA’s
weapons and laptops. OIG also noted in its report that the DEA’s Firearms Training Unit (TRDG)
corrected all weapons-related deficiencies directed to TRDG in OIG’s 2002 audit report.

    OIG reported during its current review that DEA was not accurately reporting lost/stolen weapons
and that all lost/stolen weapons were not entered into the National Crime Information Center (NCIC)
database. In April 2007, DEA implemented a new policy regarding the loss/theft of firearms and has
since ensured that all lost/stolen weapons are accurately reported and entered into the NCIC database.

    OIG noted in its review that DEA was unable to provide assurance that the contents for 226 of
231 lost or stolen laptops did not contain sensitive information or personally identifiable information
(PII). Moreover, OIG stated that this finding was similar to the findings in its 2002 audit report.



                                                 95
Raymond J. Beaudet, Assistant Inspector General for Audit                                  page 2

DEA notes that PII was federally codified in May 2006, in an Office of Management and Budget
(OMB) memorandum (06-15), entitled: Safeguarding Personally Identifiable Information. In
October 2006, DEA issued a broadcast message to all DEA employees requiring them to report losses
of PII. OIG’s recent review, which covered the period from January 2002 to June 2007, implies that
DEA was deficient in its reporting of PII during their current and previous review when, in fact, DEA
was not required to report PII until May 2006.

DEA provides the following response to the OIG’s recommendations:

Recommendation 1. Ensure that all DEA Forms 29 submitted are complete, accurate, and
promptly submitted in accordance with DEA policy.

DEA concurs with the recommendation. DEA has recently implemented new interim policy,
(pending revision of DEA’s Information Technology Rules of Behavior) regarding
lost/stolen/missing DEA owned laptop computers by all DEA personnel, Task Force Officers (TFO)
and contractors (Attachment 1). The new policy supersedes the memorandum issued by former
Administrator Asa Hutchinson, dated October 18, 2002, entitled: “Improving Inventory Controls of
Laptop Computers,” which had been DEA’s policy for the reporting of lost/stolen/missing laptop
computers. The new interim policy will be incorporated into DEA’s Interim Information Technology
Rules of Behavior and the Administrative Manual.

The new laptop policy requires that immediate verbal notification be made to the Special Agent in
Charge (SAC), Regional Director (RD), or Headquarters Office Head (HOH) by the individual who
had custody or control of the laptop computer at the time of the loss/theft or who becomes aware that
any laptop computer is unaccounted for or missing. The SAC/RD/HOH, or their designee, is
responsible for the immediate telephonic reporting of the loss/theft of the laptop computer to the DEA
Headquarters (HQ) Command Center (OMC). Within 48 hours after the discovery of the loss/theft,
the SAC/RD/HOH will notify the Chief Inspector (IG), the Office of Security Programs (IS), Office
of Professional Responsibility (OPR), the Office of Administration (SA), the Office of Information
Systems (SI), and the Board of Professional Conduct (HRB) via a teletype or memorandum of the
loss/theft. The person reporting the lost/stolen or missing laptop computer must complete the DEA
Form 29 within five business days of discovering the lost/stolen or missing laptop computer. The
OPR Inspector or Field Supervisory Special Agent assigned the loss/theft investigation will review
the DEA Form 29 during the course of their investigation to ensure the form contains all necessary
information.

In April 2007, DEA implemented new policy regarding the loss or theft of firearms. The reporting of
a lost or stolen firearm mirrors the above-mentioned loss/theft/missing laptop computer policy with
the exception of the time allowed for preparing the DEA Form 29. Presently, an individual is
required to complete the form within 48 hours of discovering that the firearm is lost/stolen. The
Agents Manual will be revised to change the time for completing the DEA Form 29 from 48 hours to
five business days. The Agents Manual will still require immediate verbal notification by the
SAC/RD/HOH, or their designee, to OMC and subsequent notification within 48 hours, via a teletype
or memorandum, to OPR, HRB, and TRDG




                                                96
Raymond J. Beaudet, Assistant Inspector General for Audit                                   page 3

Recommendation 2. Ensure that weapon and laptop computer losses are accurately and
promptly entered into the NCIC database.

DEA concurs with the recommendation. DEA has recently implemented new interim policy
regarding the reporting of lost/stolen/missing DEA owned laptop computers by all DEA personnel,
TFOs, and contractors (Attachment 1). The new policy supersedes the memorandum issued by
former Administrator Asa Hutchinson, dated October 18, 2002, entitled, “Improving Inventory
Controls of Laptop Computers” which had been DEA’s policy for the reporting of lost/stolen/missing
laptop computers. The new interim policy will be incorporated into DEA’s Interim Information
Technology Rules of Behavior and the Administrative Manual.

Unlike the policy stated in former Administrator Hutchinson’s 2002 memorandum, DEA’s new
laptop policy requires that the notification teletype or memorandum prepared by the SAC/RD/HOH
within 48 hours of the loss/theft of the laptop computer document that the laptop was entered into
NCIC as well as the name of the agency that entered the laptop computer into NCIC and the date
entered. The new policy also requires that the NCIC entry confirmation be an attachment to the
report of investigation regarding the loss/theft of the laptop.

In April 2007, DEA implemented new policy regarding the loss or theft of firearms. Since April
2007, there have been 13 incidents involving lost or stolen weapons and 12 of the weapons were
entered into NCIC. The instance where the weapon’s serial number was not entered into NCIC
involved a TFO reporting his weapon lost on one day and finding it in his residence the following
day.

Recommendation 3. Revise the DEA Agents Manual to include procedures for actions required
by DEA personnel to report lost or stolen laptop computers. At a minimum the Agents Manual
should be revised to require information on laptop make, serial number, model number, NCIC
record number, and a statement on the contents of the laptop and whether it contained
classified, sensitive, or PII. The DEA Agents Manual should also be revised to require that the
investigation of lost or stolen laptops verify the contents of any missing laptop and ensure this
information is described in detail in the case file.

DEA concurs with the recommendation. DEA has recently implemented new interim policy
regarding the reporting of lost/stolen/missing DEA owned laptop computers by all DEA personnel,
TFOs, and contractors (Attachment 1). The new policy supersedes the memorandum issued by
former Administrator Asa Hutchinson, dated October 18, 2002, entitled, “Improving Inventory
Controls of Laptop Computers” which had been DEA’s policy for the reporting of lost/stolen/missing
laptop computers. The new policy will not be included into the Agents Manual since laptop
computers are utilized not only by Special Agents, but also Intelligence Research Specialists,
Diversion Investigators, Forensic Chemists, support staff, and contractors. The interim policy will be
incorporated into DEA’s Interim Information Technology Rules of Behavior and the Administrative
Manual.




                                                97
Raymond J. Beaudet, Assistant Inspector General for Audit                                   page 4

DEA’s interim policy mandates that during the immediate telephonic notification to OMC by the
SAC/RD/HOH, or their designee, information supplied to OMC will include the laptop’s make,
model number, and serial number. Also included in the information supplied to OMC is whether any
classified, sensitive but unclassified (SBU) or personal identifying information (PII) was stored on
the laptop, and if so, a summary of the information stored including any risk posed by the loss or
compromise of the information stored. The notification teletype or memorandum prepared by the
SAC/RD/HOH within 48 hours of the loss/theft of the laptop computer will include the above-
mentioned information along with facts that the laptop data was entered into NCIC, the name of the
agency that entered the laptop computer into NCIC, and the date entered.

The interim policy requires that the OPR Inspector or Field Supervisory Special Agent assigned the
loss/theft investigation prepare a report of investigation. This report will address various areas to
include whether the laptop’s use was consistent with DEA policy, confirmation of the installation of
approved encryption software, and the type of information processed or stored on the laptop
computer.

Recommendation 4. Revise its policy to ensure that all laptop computers are encrypted.

DEA does not concur with the recommendation. In early 2007, DEA’s Office of Information
Systems and the Office of Security Programs established a program to deploy and implement full
hard-drive encryption on laptops that are used to process sensitive information. As of December
2007, laptops that process sensitive information or PII have full disk encryption implemented in
compliance with the July 30, 2007 DEA Chief Information Officer (CIO) mandate. In this
memorandum, the CIO stated, “Mobile computing devices are authorized to process and store PII and
‘sensitive but classified’ (SBU) data, provided they are encrypted with PointSec software (or other
Office of Information Systems approved encryption software) and are not utilized to access the
Internet.” PII is primarily defined as any personal information that can be linked to an individual
(i.e., names, social security numbers, dates of birth, etc), while SBU data includes such items as
DEA-6s (and other investigative reports/documents), court orders, subpoenas, etc. All mobile
computing devices that are used exclusively to support electronic surveillance, computer forensics,
polygraph examinations, and other digital monitoring functions are exempt from the security
requirements mandated above.”

These exemptions are required based on attempts to load mission support applications onto laptops
that were installed with the approved DEA encryption software. Problems with Global Positioning
Satellite (GPS) monitoring, video surveillance, polygraphs and computer forensics were reported.
Analysis of these problems revealed that the software lacks support for all the Operating Systems
needed. The system partitioning requirements are impacted by loading the encryption software. The
software caused video surveillance and control capabilities to be slowed down to a point of
inoperability. DEA requests that the recommendation be changed to accommodate/exempt laptops
supporting operational functions (such as Tracking and Monitoring, Video Surveillance, Polygraphs
and Computer Forensics) that are rendered inoperable when full disk encryption is installed and
implemented.




                                                 98
Raymond J. Beaudet, Assistant Inspector General for Audit                                   page 5

Recommendation 5. Ensure that each division maintains supporting documentation for laptop
purchases and disposals.

DEA concurs with this recommendation. DEA will notify the field and Headquarters offices of the
requirement to maintain laptop purchase and disposal documents in a centralized location in each
division and headquarters office. The memorandum will be issued within 60 days of the issuance of
the Final Report. The DEA Administrative Manual and the Property Management Handbook will
also be revised to reflect this requirement for laptop purchase and disposal documentation.

Recommendation 6. Prepare and submit to DOJ Justice Management Division complete and
accurate semiannual Department Theft Reports regarding the loss of weapons and laptop
computers and to DOJCERT incident reports regarding the loss of laptop computers.

DEA concurs with this recommendation. Losses and thefts of government and personally-owned
property sustained by DEA or DEA employees will be reported in accordance with the requirements
and procedures contained in DOJ Order 2630.2A, Protecting and Controlling Federally Controlled
Property and Loss/Theft Reporting Procedures. The semiannual report will be reconciled with the
appropriate DEA components in December and June, to ensure accuracy, then consolidated by the
DEA Security Programs Manager for timely transmittal to the DOJ Security Officer in January and
July.

Incident reports regarding the theft or loss of laptop computers will be governed by DEA’s new
interim policy regarding the reporting of lost/stolen/missing DEA owned laptop computers
(Attachment 1). In accordance with this policy, the Office of Security Programs will receive reports
of stolen, missing, or lost laptops, categorize incidents in accordance with DOJ/DEA policy, and
ensure incidents are reported to DOJCERT and/or the Security and Emergency Planning Staff (SEPS)
based on information sensitivity timeframes.

Recommendation 7. Strengthen the exit processing for departing employees to ensure that
documentation on the Employee Clearance Record clearly indicates specifics on remitted
laptops.

DEA concurs with this recommendation. The Office of Security Programs is drafting clearance
procedures for separating and transferring employees that will include an inventory and disposition of
all assigned government equipment to include full identification of remitted laptops. The clearance
procedures will accompany an updated version of the DEA Form 171a (Employee Clearance Record).

Documentation detailing DEA’s efforts to implement the attached action plan will be provided to the
OIG on a quarterly basis, until such time that all corrective actions have been completed. If you have
any questions regarding DEA’s response to the OIG’s recommendation, please contact Senior
Inspector Michael Stanfill at 202-307-8769.

Attachment




                                                99
   ATTACHMENT 1




                          OIG NOTE:
The DEA has identified Attachment 1 to its response as “DEA
Sensitive.” Therefore, it has been excluded from this report.



                            100
                                                              APPENDIX XV


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the DEA for its review
and comment. In its response to our report, the DEA concurred with six of
our seven recommendations and provided supplementary comments
regarding certain information contained in the report. Before addressing the
actions necessary to resolve and close the report recommendations, we first
address statements by the DEA concerning our findings that the DEA did not
appropriately encrypt its laptop computers and did not know the contents of
its lost and stolen laptops.

      The DEA disagreed with our recommendation to revise its policy to
ensure that all laptop computers are encrypted. The DEA requested that our
recommendation be modified to recognize the need for an exemption for
laptops supporting operational functions, such as tracking and monitoring
using GPS, video surveillance, polygraph examinations, and computer
forensics. The DEA stated that it has had difficulty operating software
applications for these uses when employed on encrypted laptops and that
these laptops are not authorized to process sensitive case information or
personally identifiable information (PII).

      We recognize that encryption software can sometimes cause problems
in operating certain software applications. However, for several reasons, we
believe that all DEA laptops should be encrypted and the DEA should work
with the Department to identify a compatible encryption product for these
laptops.

      First, despite DEA’s assertion that the laptops that were not encrypted
were not authorized to process sensitive case information or PII, such
laptops can and do contain such sensitive information. For example, our
audit found five unencrypted laptops that contained sensitive case
information or PII, including one laptop that the DEA would have exempted.
Moreover, the DEA could not determine what was on 226 lost or stolen
laptops and therefore was unable to ensure that the laptop contents
contained no sensitive information or PII. These findings support our belief
that, notwithstanding DEA policy, these laptops may process sensitive
information, and that the DEA should encrypt all laptops to mitigate the
possibility of loss of sensitive information and PII.

      Second, we discussed the DEA’s exemption policy with the Acting
Director of the DOJ Information Technology Security Staff. He stated that
                                    101
he believed the DEA should work with the DOJ information technology staff
to find a solution to its encryption issues. We agree. Only if a solution
cannot be found for the encryption issues should the DEA consider waiving
the encryption requirement. In that event, the DEA needs to clearly instruct
personnel that these laptops are not to be used for processing sensitive
information or PII. Further, these laptops should be marked to indicate that
they are not authorized for processing sensitive information or PII.

      Finally, we note that the process the DEA used to waive the encryption
for the laptops did not comply with DOJ policy. In February 2007, the
Deputy Attorney General issued a memorandum addressing the protection of
PII and other sensitive data. The memorandum delegated the authority to
make a written determination that particular agency data is non-sensitive
and exempt from encryption requirements to the head of the component,
and limited further delegation to the component head’s principal deputy.
However, the DEA reported in its response that the DEA Chief Information
Officer, not the Administrator or Deputy Administrator, exempted laptops
used for supporting operational functions, which is contrary to the process
required by the Deputy Attorney General’s memorandum.

      With regard to the DEA’s investigation of laptop losses, the DEA
response discusses our finding that it was unable to provide assurance that
226 of the 231 lost or stolen laptops did not contain sensitive information or
PII. The DEA’s response states that PII was federally codified in May 2006
in an OMB memorandum, and that the DEA then issued a message to all
DEA employees requiring them to report losses of PII. The DEA response
then states that the OIG report “implies that DEA was deficient in its
reporting of PII during their current and previous review when, in fact, DEA
was not required to report PII until May 2006.”

       First, the DEA’s argument regarding when it was required to report lost
laptops is not correct. Contrary to the DEA’s assertion that its reporting
obligation was not defined until the May 2006 OMB memorandum DOJ Order
2640.2E, “Information Technology Security,” dated November 28, 2003,
required that incidents that result in the loss or compromise of information
shall be reported to the Department Security Officer and Department Chief
Information Officer. Further, DOJ Information Technology Security Standard
“Incident Response”, Version 1.0, dated March 2005, required components
to report all incidents of data loss to the DOJCERT.

     Second, as noted in our report, the DEA did not know the contents of
most of the missing or stolen laptops. All DEA laptops have the potential to
be used for sensitive casework, and to contain sensitive or PII information.
                                     102
Therefore, if laptops were lost or stolen, the DEA should have investigated
the loss, determined what was on the laptop, and reported the loss to the
Department. We believe this responsibility arose independently from, and
before, the OMB memorandum in May 2006.

     The following is our analysis of the DEA’s response to our specific
recommendations.

Status of Recommendations:

1. Resolved. The DEA concurred with our recommendation to ensure that
all DEA Forms 29 are complete, accurate, and promptly submitted in
accordance with DEA policy. The DEA stated that it has implemented new
interim policies regarding the reporting of both lost or stolen laptops and
weapons, which require immediate verbal notification by the responsible
parties to the appropriate Special Agent in Charge, Regional Director, or
Headquarters Office Head. The policies also require a DEA Form 29 to be
completed within a specified timeframe and to be reviewed to ensure that it
contains all necessary information. The DEA also must ensure that its policy
also includes notifying DOJCERT within 1 hour of an incident involving a lost
or stolen laptop.

This recommendation can be closed when we receive copies of the revised
Agents Manual and the Administrative Manual incorporating the guidelines
specified in the new policies.

2. Resolved. The DEA concurred with our recommendation to ensure that
weapon and laptop computer losses are accurately and promptly entered in
the NCIC database. The DEA has implemented an interim policy specifying
new reporting requirements regarding the entry of lost or stolen laptops and
weapons in the NCIC database.

This recommendation can be closed when we receive copies of the revised
DEA Interim Information and Technology Rules of Behavior and
Administrative Manual incorporating the new policy governing entry of lost
or stolen laptops and weapons in the NCIC database.

3. Resolved. The DEA concurred with our recommendation to revise the
DEA Agents Manual to include procedures for actions required by DEA
personnel to report lost or stolen laptop computers. The DEA stated that it
has implemented a new interim policy regarding the reporting of lost, stolen,
or missing DEA-owned laptops by its personnel. According to the DEA’s
response, this policy includes recording the laptop make, model number, and
                                     103
serial number, as well as information on the NCIC entry and a summary of
any sensitive or PII contained on the laptop.

This recommendation can be closed when we receive copies of the revised
DEA Interim Information and Technology Rules of Behavior and
Administrative Manual incorporating the new policy governing the reporting
of lost, stolen or missing laptop computers.

4. Unresolved. The DEA did not concur with our recommendation to revise
its policy and ensure that all laptop computers are encrypted. As discussed
above, we believe the DEA should reconsider this issue. In order to resolve
and close this recommendation, we believe the DEA should work with the
DOJ information technology staff to find a solution to operating its technical
programs with a DOJ-approved encryption software package.

5. Resolved. The DEA concurred with our recommendation to ensure that
each division maintains supporting documentation for laptop purchases and
disposals. The DEA stated that it revised its Administrative Manual and
Property Management Handbook to require its field and headquarters offices
to maintain purchase and disposal information in a centralized location.

This recommendation can be closed when we receive copies of the revised
DEA Administrative Manual and Property Management Handbook
incorporating this requirement.

6. Resolved. The DEA concurred with our recommendation to prepare and
submit to DOJ Justice Management Division complete and accurate
semiannual Department Theft Reports regarding the loss of weapons and
laptop computers and to DOJCERT incident reports regarding the loss of
laptop computers. The DEA states that it will comply with the reporting
requirements of DOJ Order 2630.2A, “Protecting and Controlling Federally
Controlled Property and Loss/Theft Reporting Procedures.” The DEA stated
that it will reconcile its semiannual report with the appropriate DEA
components to ensure accuracy in December and June, and that it will
consolidate the information for timely reporting to the DOJ Security Officer in
January and July. The DEA also stated that incident reports regarding the
theft or loss of laptop computers will be governed by its new policy
concerning the reporting of lost, stolen, or missing DEA-owned laptop
computers.

This recommendation can be closed when we receive documentation
supporting the implementation of the DEA’s new policies for reporting

                                     104
weapon and laptop losses to the DOJ and a copy of an accurate and timely-
submitted semiannual Department Theft Report.

7. Resolved. The DEA concurred with our recommendation to strengthen
the exit processing for departing employees to ensure that documentation
on the Employee Clearance Record clearly indicates specifics on returned
DEA laptops. The DEA stated that its Office of Security Programs is drafting
clearance procedures for separating and transferring employees that will
include an inventory and disposition of all assigned government equipment,
including the full identification of returned laptops.

This recommendation can be closed when we receive the new employee
clearance procedures, a revised DEA Form 171a (Employee Clearance
Record), and documentation verifying that the new procedures have been
implemented.




                                    105
